APPENDIX

TABLE OF CONTENTS
Appendix A

Court of Appeals Opinion,
July 20, 2021 ....................... 1a

Appendix B

District Court Order
Regarding Motion for
Summary Judgment,
January 5, 2017 ................ 29a

Appendix C

District Court Order Denying
Motion for Leave to File a
Motion for Reconsideration
March 27, 2017 ................. 79a

Appendix D

District Court Judgment,
February 4, 2019............... 97a

Appendix E

Statutory Provisions
Involved ............................102a

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
____________
Nos. 19-15382, 20-15186
Argued and Submitted January 14, 2021
San Francisco, California
Filed February 23, 2021
Amended March 8, 2021
Amended July 20, 2021
____________
JULIA BERNSTEIN; Esther Garcia; Lisa Marie
Smith, on behalf of themselves and all others similarly situated,
Plaintiffs-Appellees
v.
VIRGIN AMERICA, INC.; Alaska Airlines, Inc.,
Defendants-Appellants
____________
Before: J. CLIFFORD WALLACE and MILAN D.
SMITH, JR., Circuit Judges, and ROBERT S. LASNIK,* District Judge.

The Honorable Robert S. Lasnik, United States District
Judge for the Western District of Washington, sitting by designation.
*

2a
ORDER AND AMENDED OPINION
ORDER
The opinion filed on February 23, 2021, and previously amended on March 8, 2021, is amended with the
amended opinion filed concurrently with this order.
The panel unanimously voted to deny the petitions for panel rehearing. Judge M. Smith voted to
deny the petitions for rehearing en banc, and Judges
Wallace and Lasnik so recommended. The full court
was notified of the petitions for rehearing en banc, and
no judge requested a vote. Fed. R. App. P. 35. The petitions for rehearing en banc (No. 19-15382 Dkts. 115,
116; No. 20-15186 Dkts. 47, 48) are DENIED. No further petitions for panel rehearing or rehearing en
banc will be entertained.
OPINION
M. SMITH, Circuit Judge:
This case requires us to determine whether certain provisions of the California Labor Code apply to
an interstate transportation company’s relationship
with its employees. Plaintiffs Julia Bernstein, Esther
Garcia, and Lisa Smith sued their employer, Virgin
America, Inc., alleging that Virgin violated a host of
California labor laws. The district court certified a
class of similarly-situated plaintiffs and granted summary judgment to Plaintiffs on virtually all of their
claims, and Virgin appealed. We affirm in part, reverse in part, and remand for further proceedings.
FACTUAL AND PROCEDURAL
BACKGROUND
Plaintiffs are California-based flight attendants
who were employees of Virgin. During the Class Peri-

3a
od, approximately 25% of Virgin’s flights were between California airports. Approximately 75% of Virgin’s flights took off or landed at a non-California airport, but the vast majority of those flights retained
some connection to California: “From 2011 through
2016, the daily percentage of Virgin’s flights that arrived in or departed from California airports was
never less than 88%, and during some years reached
99%.” Class members spent approximately 31.5% of
their time working within California’s borders. There
is no evidence in the record to suggest that class members spent more than 50% of their time working in any
one state, or that they worked in any other state more
than they worked in California. Virgin’s fleet of aircraft were registered with the Federal Aviation
Administration at Virgin’s headquarters in Burlingame, California, and the record does not reflect any
other business headquarters.
In their complaint, Plaintiffs alleged that Virgin
failed to pay minimum wage (Cal. Lab. Code
§ § 1182.12, 1194, 1194.2), overtime (Cal. Lab. Code
§ § 510, 1194), and for every hour worked (Cal. Lab.
Code § 204); failed to provide required meal periods
(Cal. Lab. Code § § 226.7, 512), rest breaks (Cal. Lab.
Code § 226.7), and accurate wage statements (Cal.
Lab. Code § 226); failed to pay waiting time penalties1
(Cal. Lab. Code § § 201, 202, 203); and violated the
Unfair Competition Law (Cal. Bus. & Prof. Code
§ 17200). Plaintiffs also sought compensation under

Waiting time penalties refer to the California requirement
that employers expeditiously pay all wages due to employees who
separate from employment. If an employer fails to comply, it is
liable for “waiting time penalties” pursuant to the Labor Code.
1

4a
the California Labor Code’s Private Attorneys General Act (Cal. Lab. Code § 2698) (PAGA).
Virgin disputes that it is subject to California law,
but does not contend that any other state’s labor laws
ought to apply to it.
In November 2016, the district court held that
Plaintiffs satisfied the requirements for a class action
pursuant to Federal Rule of Civil Procedure 23(b)(3),
and certified the following classes:
Class: All individuals who have worked as California-based flight attendants of Virgin America,
Inc. at any time during the period from March 18,
2011 (four years from the filing of the original
Complaint) through the date established by the
Court for notice of certification of the Class (the
“Class Period”).
California Resident Subclass: All individuals
who have worked as California-based flight attendants of Virgin America, Inc. while residing in
California at any time during the Class Period.
Waiting Time Penalties Subclass: All individuals who have worked as California-based flight
attendants of Virgin America, Inc. and have separated from their employment at any time since
March 18, 2012.
On July 9, 2018, the district court granted Plaintiffs’ Motion for Summary Judgment in large part.
The district court held that the California Labor Code
applied to all work performed in California, and that
“the presumption against extraterritorial application
does not apply for the failure to pay for all hours
worked, to pay overtime, to pay waiting time penalties, and to provide accurate wage statements” be-

5a
cause the conduct underlying those claims took place
in California. The district court also rejected the “job
situs” test Virgin proposed, holding that, under California law, an employee need not work “exclusively or
principally” in California to benefit from California
law.
With respect to the dormant Commerce Clause arguments, the district court held that application of the
California Labor Code does not violate the dormant
Commerce Clause because the California Labor Code
does not impose a substantial burden on interstate
commerce that is “clearly excessive in relation to the
putative local benefits.” Pike v. Bruce Church, Inc.,
397 U.S. 137, 142 (1970). The district court further
held that the California meal and rest break requirements were not preempted by field, conflict, or express
preemption pursuant to the Federal Aviation Act
(FAA) or the Airline Deregulation Act (ADA). The district court awarded PAGA penalties for initial and
subsequent violations of the Labor Code.
The district court then awarded attorney’s fees
and costs to Plaintiffs’ counsel, excluding 148.1 hours
that were not properly documented, reducing the
award for “complaint and client communications”
time by 10%, and imposing a 5% reduction to the remaining hours. The district court then applied a 2.0
multiplier based on the factors set forth in Ketchum v.
Moses, 17 P.3d 735, 741–42 (Cal. 2001). The district
court awarded the full amount of costs that Plaintiffs’
counsel claimed based on its conclusion that the
amounts claimed were reasonable. Virgin appealed
from the district court’s summary judgment and grant
of attorney’s fees, and the cases were consolidated for
oral argument.

6a
STANDARD OF REVIEW
We have jurisdiction pursuant to 28 U.S.C.
§ 1291. We review the district court’s grant of summary judgment de novo. United States v. Phattey, 943
F.3d 1277, 1280 (9th Cir. 2019). Our task is to “view
the evidence in the light most favorable” to Virgin
“and determine whether there are any genuine issues
of material fact and whether the district court correctly applied the relevant substantive law.” Id.
(cleaned up).
We review a district court’s decision on a motion
for attorney’s fees for abuse of discretion. Cline v. Indus. Maint. Eng’g & Contracting Co., 200 F.3d 1223,
1235 (9th Cir. 2000).
ANALYSIS
A.
As a threshold matter, we must consider whether
the dormant Commerce Clause permits application of
California labor law in the context of this case. We
hold that the dormant Commerce Clause does not bar
applying California law.
“Modern dormant Commerce Clause jurisprudence primarily ‘is driven by concern about economic
protectionism—that is, regulatory measures designed
to benefit in-state economic interests by burdening
out-of-state competitors.’” Nat’l Ass’n of Optometrists
& Opticians v. Harris, 682 F.3d 1144, 1148 (9th Cir.
2012) (quoting Dep’t of Revenue of Ky. v. Davis, 553
U.S. 328, 337–38 (2008)). “[A] state regulation does
not become vulnerable to invalidation under the
dormant Commerce Clause merely because it affects
interstate commerce. A critical requirement for proving a violation of the dormant Commerce Clause is

7a
that there must be a substantial burden on interstate
commerce.” Id. (citation omitted). “These other significant burdens on interstate commerce generally result
from inconsistent regulation of activities that are inherently national or require a uniform system of
regulation.” Id.
Indeed, only a “small number” of Supreme Court
cases “have invalidated state laws under the dormant
Commerce Clause that appear to have been genuinely
nondiscriminatory . . . where such laws undermined a
compelling need for national uniformity in regulation.” Gen. Motors Corp. v. Tracy, 519 U.S. 278, 298
n.12 (1997). Among these are Bibb v. Navajo Freight
Lines, Inc., 359 U.S. 520 (1959), and Southern Pacific
Company v. Arizona, 325 U.S. 761 (1945). Virgin relies
on these cases, but they do not help its legal position.
In Bibb, the Arkansas Commerce Commission required straight mudflaps on trailers operating on
state highways; an Illinois statute required curved
mudflaps. 359 U.S. at 527. “Thus[,] if a trailer [were]
to be operated in both States, mud-guards would have
to be interchanged, causing a significant delay in an
operation where prompt movement may be of the essence.” Id. Moreover, the inter-change was laborious
and could be “exceedingly dangerous.” Id. The Supreme Court struck down the Illinois statute under
the dormant Commerce Clause based on “the rather
massive showing of burden on interstate commerce
which [the motor carriers] made at the hearing.” Id.
at 528, 530.
In Southern Pacific, Arizona limited freight trains
to seventy cars and passenger trains to fourteen cars,
differing substantially from nearby states’ length limitations. 325 U.S. at 771, 774. Railroad operations

8a
passing through Arizona were substantially burdened
by the obligation to break up and remake trains at the
Arizona state border. Id. at 772. The Supreme Court
held that the facts in the record showed “[t]he serious
impediment to the free flow of commerce by the local
regulation of train lengths and the practical necessity
that such regulation, if any, must be prescribed by a
single body having a nation-wide authority.” Id. at
775. These cases stand for the principle that state regulations can violate the dormant Commerce Clause in
the rare case where an interstate carrier must comply
with different and incompatible state requirements,
and where that compliance is substantially burdensome.
We are not persuaded that California’s labor laws
are similar in character and effect to Illinois’s mudflaps decree and Arizona’s train-length limitation.
Virgin has not identified any other state labor laws
with which it might be required to comply. Indeed, because California labor law’s application is based upon
the parties’ various contacts with the state—as explained further below—a claim that a proliferation of
similar state laws would substantially burden Virgin
is dubious. Virgin does not have anything like the
number of contacts with any other state that it has
with California, and it fails to proffer evidence of any
burden it allegedly suffers from doing business in
other states with different regulations. Cf. Valley
Bank of Nev. v. Plus Sys., Inc., 914 F.2d 1186, 1192
(9th Cir. 1990) (distinguishing between the facts presented in Bibb and a case where the defendant merely
“speculate[d] that other states will pass similar but inconsistent legislation,” because “inconsistent state
laws . . . can coexist without conflict as long as each
state regulates only its own [entities]”). We hold that

9a
the dormant Commerce Clause is not implicated in
this case.
B.
Virgin challenges application of California law to
both the Class and the California Resident Subclass.
But Virgin’s proposed “job situs” test is a misinterpretation of California law. According to the California
Supreme Court:
The better question is what kinds of California
connections will suffice to trigger the relevant
provisions of California law. And second, the
connections that suffice for purposes of one
statute may not necessarily suffice for another. There is no single, all-purpose answer
to the question of when state law will apply to
an interstate employment relationship or set
of transactions. As is true of statutory interpretation generally, each law must be
considered on its own terms.
Ward v. United Airlines, Inc., 466 P.3d 309, 319
(2020). In accordance with Ward, each of Plaintiffs’
claims requires separate analysis to determine
whether the California Supreme Court would apply
California law to the Class and Subclass under the circumstances of this case. Cf. Pacheco v. United States,
220 F.3d 1126, 1131 (9th Cir. 2000) (“[W]e must predict as best we can what the California Supreme Court
would do in these circumstances.”). Where there is no
genuine issue of material fact whether Virgin complied with California law, we decline to determine
whether and how the California Supreme Court would
apply that particular law to Virgin.

10a
a. Minimum wage and compensation for all
hours worked
California Labor Code § 1182.12(a) prescribes “the
minimum wage for all industries.” Section 204(a) requires that “[a]ll wages . . . earned by any person in
any employment are due and payable twice during
each calendar month.” Cal. Lab. Code § 204(a). After
the district court’s ruling in this case, the California
Supreme Court considered whether a virtually identical compensation scheme violated California law for
payment of minimum wage and payment for all hours
worked. The court held that a payment scheme based
on block time does not violate California law where
the scheme, taken as a whole, does not promise any particular compensation for any
particular hour of work; instead, . . . it offers a
guaranteed level of compensation for each
duty period and each rotation. Because there
are no on-duty hours for which Delta contractually guarantees certain pay—but from
which compensation must be borrowed to
cover other un- or undercompensated on-duty
hours—the concerns presented by the compensation scheme in [Armenta v. Osmose, Inc.,
37 Cal. Rptr. 3d 460 (Ct. App. 2005)] and like
cases are absent here.
Oman v. Delta Air Lines, Inc., 466 P.3d 325, 339 (Cal.
2020) (emphases omitted).
Plaintiffs attempt to distinguish their case by noting that, while Delta promised the Oman plaintiffs
payment “by the rotation rather than by particular
hours worked,” Virgin promised them an hourly wage.
However, Plaintiffs’ prior briefing contradicts this assertion. Instead, Plaintiffs’ answering brief stated

11a
that Virgin paid flight attendants based on “(1) block
time worked each day of the pairing; (2) block time
spent deadheading (traveling between airports to
reach an assigned flight . . .); and (3) up to 3.5 hours
of minimum duty if a flight attendant’s block time and
deadheading time in one day did not exceed 3.5 hours
in total.” This does not reflect a promise to pay a particular hourly wage.
Second, Plaintiffs contend that, unlike Delta’s
scheme in Oman, Virgin’s did not guarantee “that
flight attendants are always paid above the minimum
wage for the hours worked during each rotation.” See
Oman, 466 P.3d at 338. Plaintiffs posit that a Virgin
flight attendant could be ordered to report for duty
five hours prior to their scheduled flight, but not be
paid for any of that time. However, Plaintiffs have not
alleged that this ever happened, nor that it would
plausibly happen. Thus, the rule from Oman controls.
The fact that pay is not specifically attached to each
hour of work does not mean that Virgin violated California law. We therefore reverse the district court’s
summary judgment to Plaintiffs on their claims for
minimum wage and payment for all hours worked.
b. Overtime
Under California law,
Any work in excess of eight hours in one workday and any work in excess of 40 hours in any
one work-week and the first eight hours
worked on the seventh day of work in any one
workweek shall be compensated at the rate of
no less than one and one-half times the regular rate of pay for an employee. Any work in
excess of 12 hours in one day shall be compensated at the rate of no less than twice the

12a
regular rate of pay for an employee. In addition, any work in excess of eight hours on any
seventh day of a work-week shall be compensated at the rate of no less than twice the
regular rate of pay of an employee.
Cal. Lab. Code § 510(a).
In Sullivan v. Oracle Corp., 254 P.3d 237 (Cal.
2011), the California Supreme Court held that the
overtime provision applied to non-residents performing work in California for a California-based
employer. Id. at 240–41. This holding compels the conclusion that California’s overtime provision applies to
the Plaintiff Class. Sullivan did not answer whether
the overtime provision would apply to residents performing work outside California for a California-based
employer, i.e., the Plaintiff California Resident Subclass. However, the principles set forth in Sullivan
require us to apply California overtime law to California residents’ out-of-state work. In Sullivan, the court
wrote, “To permit nonresidents to work in California
without the protection of our over-time law would
completely sacrifice, as to those employees, the state’s
important public policy goals of protecting health and
safety and preventing the evils associated with overwork.” Id. at 247. The same public policy goals would
be thwarted by permitting residents to work outside
of California for a California employer without the
protection of its overtime law. Thus, we hold that under the circumstances of this case, Virgin was subject
to the strictures of California Labor Code § 510 as to
both the Class and Subclass.
Virgin’s opening brief did not dispute that it failed
to comply with § 510. Accordingly, we affirm the

13a
district court’s grant of summary judgment to Plaintiffs on this claim.
c. Rest and meal breaks
i. Preemption
California Labor Code § 512(a) states:
An employer shall not employ an employee for
a work period of more than five hours per day
without providing the employee with a meal
period of not less than 30 minutes . . . . An employer shall not employ an employee for a
work period of more than 10 hours per day
without providing the employee with a second
meal period of not less than 30 minutes[.]
IWC Wage Order 9-2001 § 12(A) requires an “authorized rest period time” that is “based on the total
hours worked daily at the rate of ten (10) minutes net
rest time per four (4) hours or major fraction thereof.”
“[I]nsofar as practicable,” the rest period “shall be in
the middle of each work period.” Id. Virgin contends
that federal law preempts California’s meal and rest
break requirements in the aviation context because
federal law occupies the field. We disagree.
Under the field preemption doctrine,
States are precluded from regulating conduct
in a field that Congress, acting within its
proper authority, has determined must be regulated by its exclusive governance. The intent
to displace state law altogether can be inferred from a framework of regulation so
pervasive that Congress left no room for the
States to supplement it or where there is a federal interest so dominant that the federal

14a
system will be assumed to preclude enforcement of state laws on the same subject.
Arizona v. United States, 567 U.S. 387, 399 (2012)
(cleaned up). Pursuant to the FAA, federal regulations
entitled “Flight attendant duty period limitations and
rest requirements” were promulgated that prohibit
duty periods of more than 14 hours, subject to certain
exceptions, and require a 9-hour rest period after release from a duty period of 14 hours or less. 14 C.F.R.
§ 121.467(b)(1)–(2).
Although our circuit has not yet addressed the
precise question of FAA preemption of state meal and
rest break requirements, our case law makes clear
that field preemption generally applies to state regulations specifically in the field of aviation safety. In
Montalvo v. Spirit Airlines, 508 F.3d 464, 468 (9th Cir.
2007), we held that Congress intended to occupy the
field of “aviation safety.” This was based on the dominance of federal interests in regulation of the
country’s airspace, the passage of the FAA “in response to a series of fatal air crashes between civil and
military aircraft operating under separate flight
rules,” and delegation of “full responsibility and authority for the . . . promulgation and enforcement of
safety regulations” to the agency. Id. at 471–72 (alteration in original). We noted that the FAA also directed
the Administrator “to regulate any ‘other practices,
methods, and procedure the Administrator finds necessary for safety in air commerce and national
security.’” Id. at 472 (quoting 49 U.S.C. § 44701(a)(5)).
In Ventress v. Japan Airlines, 747 F.3d 716 (9th
Cir. 2014), we held that standards for pilots were also
pervasively regulated because the FAA authorized the
agency “to issue airman certificates to individuals who

15a
are qualified and physically able to perform the duties
related to the certified position.” Id. at 721. The plaintiff’s retaliation and constructive discharge claims
arising out of California’s whistleblowing statute (after the plaintiff raised concerns about a colleague’s
fitness to fly) were therefore preempted. Id. at 722.
Ventress made clear that a congressional interest in
national aviation safety standards served as a basis
for our holding that federal law preempted the state
law claim at issue. Ventress relied on “two reasons: the
pervasiveness of federal safety regulations for pilots
and the congressional goal of a uniform system of aviation safety.” Id. We again emphasized the
congressional interest in national aviation safety
standards when we wrote, “In reaching this conclusion, we need not, and do not, suggest that the FAA
preempts all retaliation and constructive termination
claims brought under California law . . . . Instead, we
hold that federal law preempts state law claims that
encroach upon, supplement, or alter the federally occupied field of aviation safety[.]” Id. at 722–23
(emphasis added).
Virgin contends that meal and rest breaks touch
on aviation safety in that the California requirements
prohibit employers from assigning duties to an employee who is on a meal or rest break. But this
connection is far too tenuous to support field preemption for California’s requirements. Unlike the state
laws at issue in Montalvo and Ventress, California’s
meal and rest break requirements have no direct bearing on the field of aviation safety.
We recognize that field preemption under the FAA
is not necessarily limited to state laws that regulate
aviation safety. In general, where a federal regulatory
scheme is so pervasive that it evinces an intent to

16a
occupy the field, state regulations in the same field are
preempted. Martin v. Midwest Express Holdings, Inc.,
555 F.3d 806, 811 (9th Cir. 2009). However, 14 C.F.R.
§ 121.467, the federal regulation governing maximum
duty periods for flight attendants, does not resemble
the type of comprehensive regulation or contain the
pervasive language that we consider necessary to discern congressional intent to occupy the field. See
Ventress, 747 F.3d at 721–22 (discussing at least five
different sections under two titles of regulations relating to the requirement for an airman certificate, the
requirement of a medical certificate, the delegation of
the authority to issue a certificate to the Federal Air
Surgeon, and the promulgation of standards for mental, neurological, and general medical conditions for
the medical certificate). When a single regulation has
triggered field preemption, our court has highlighted
the regulation’s “exhaustive” level of detail. See Nat’l
Fed’n of the Blind v. United Airlines Inc., 813 F.3d
718, 734–35 (9th Cir. 2016) (holding that 14 C.F.R.
§ 382.57 occupies the field of airport kiosk accessibility for the blind in part because it is “unmistakably
pervasive in the pertinent sense, in that it exhaustively regulates the relevant attributes of accessible
kiosks,” including numerous “technical and design requirements”). While § 121.467 is lengthy, it only
discusses allowed duty period lengths. The regulation
does not compel us to conclude that Congress left no
room for states to prescribe meal periods and ten-minute rest breaks within the maximum total duty
period allowed under federal law.
Conflict preemption also does not bar application
of California’s meal and rest break requirements. “A
conflict giving rise to preemption exists ‘where it is impossible for a private party to comply with both state

17a
and federal law, … and where under the circumstances of a particular case, the challenged state law
stands as an obstacle to the accomplishment and execution of the full purposes and objectives of
Congress.’” Atay v. County of Maui, 842 F.3d 688, 699
(9th Cir. 2016), quoting Crosby v. Nat’l Foreign Trade
Council, 530 U.S. 363, 372–73 (2000). We sometimes
refer to these two forms of conflict preemption as impossibility preemption and obstacle preemption. Valle
del Sol Inc. v. Whiting, 732 F.3d 1006, 1023 (9th Cir.
2013). Virgin argues that both impossibility preemption and obstacle preemption bar application of
California’s meal and rest break requirements. With
respect to Virgin’s impossibility preemption argument, it is physically possible to comply with federal
regulations prohibiting a duty period of longer than
fourteen hours and California’s statutes requiring
ten-minute rest breaks and thirty-minute meal periods at specific intervals.
Virgin’s obstacle preemption argument mischaracterizes the relevant federal regulation and
improperly dismisses the possibility of increasing
flight attendant staffing on longer flights. Virgin argues that “applying California’s break rules to flight
attendants would frustrate the operation and natural
effect of the federal safety scheme” and asserts that
“FAA rules require flight attendants to be constantly
on call and uniformly distributed throughout the
cabin to help passengers in an emergency.” Quoting
14 C.F.R. §§ 121.391(d) and 121.394(c), Virgin asserts
that “‘during takeoff and landing,’ flight attendants
must remain ‘uniformly distributed throughout the
airplane,’ to help passengers with ‘effective egress in
the event of an emergency evacuation,” and that the
same is true “during passenger boarding or

18a
deplaning.” Virgin’s phrasing to describe the duties
misleadingly suggests that all attendants on a flight
must be ready to perform the identified tasks. However, § 121.391 expressly imposes the duties only on
“the flight attendants required by this section,” which
is defined in § 121.391(a). Section 121.391(a) sets the
minimum number of attendants according to an airplane’s payload and passenger capacity:
[E]ach certificate holder must provide at least
the following flight attendants on board each
passenger-carrying airplane when passengers
are on board:
(1) For airplanes having a maximum payload
capacity of more than 7,500 pounds and having a seating capacity of more than 9 but less
than 51 passengers - one flight attendant.
Section 121.391(a)(1) (emphasis added); see also id.
(a)(2–4). Section 121.394 also defines the base number
of required flight attendants in reference to § 121.391
and allows for reductions depending on certain conditions. Therefore, contrary to Virgin’s characterization,
the relevant federal regulations define safety duties
for a minimum number of flight attendants.
We agree with the district court, which held that
airlines could comply with both the FAA safety rules
and California’s meal and break requirement by
“staff[ing] longer flights with additional flight attendants in order to allow for duty-free breaks.” Virgin
dismisses this option and argues that space constraints make it impracticable and that it would
“override” FAA rules in § 121.391. With respect to the
former argument, the record does not bear Virgin out
and indicates that Virgin operates flights with empty
jump seats. With respect to the latter, § 121.391 sets

19a
a minimum requirement for attendants per flight, so
Virgin’s argument that the application of California
meal and rest break requirements would override
FAA safety regulations does not make sense. California meal and rest break requirements do not stand as
an obstacle to the accomplishment and execution of
FAA safety regulations pertaining to flight attendants. Thus, barred by neither impossibility
preemption nor obstacle preemption, California’s
meal and rest break requirements also survive under
a conflict preemption analysis.
Finally, California’s meal and rest break requirements are also not preempted under the ADA. The
ADA provides: “a State . . . may not enact or enforce a
law, regulation, or other provision having the force
and effect of law related to a price, route or service of
an air carrier[.]” 49 U.S.C. § 41713(b)(1). In discussing
an identical provision in the trucking context, the Supreme Court “identified four principles” of the law’s
preemption:
(1) state enforcement actions having a connection with, or reference to, carrier rates, routes,
or services are pre-empted; (2) such pre-emption may occur even if a state law’s effect on
rates, routes or services is only indirect; (3) it
makes no difference whether a state law is
consistent or inconsistent with federal regulation; and (4) pre-emption occurs at least where
state laws have a significant impact related to
Congress’ deregulatory and pre-emption-related objectives.
Dilts v. Penske Logistics, LLC, 769 F.3d 637, 645 (9th
Cir. 2014) (quoting Rowe v. N.H. Motor Transp. Ass’n,
552 U.S. 364, 370–71 (2008)) (cleaned up). But

20a
“background regulations that are several steps removed from prices, routes, or services, such as
prevailing wage laws or safety regulations, are not
preempted, even if employers must factor those provisions into their decisions about the prices that they
set, the routes that they use, or the services that they
provide.” Id. at 646. Where a law bears a reference to
rates, routes, or services, the Supreme Court has held
that the law “relates to” those items and is therefore
preempted. Morales v. Trans World Airlines, Inc., 504
U.S. 374, 388–89 (1992) (prohibition on deceptive advertising of airfare was preempted). Where a law
bears no such reference, “the proper inquiry is
whether the provision, directly or indirectly, binds the
carrier to a particular price, route, or service and
thereby interferes with the competitive market forces
within the industry.” Dilts, 769 F.3d at 646 (quoting
Am. Trucking Ass’ns, Inc. v. City of L.A., 660 F.3d 384,
397 (9th Cir. 2011)).
In Dilts, we interpreted the preemption clause in
the Federal Aviation Administration Authorization
Act of 1994 (FAAA), which provided, “States may not
enact or enforce a law related to a price, route, or service of any motor carrier with respect to the
transportation of property.” 769 F.3d at 643 (quoting
49 U.S.C. § 14501(c)(1) (internal quotation marks and
alterations omitted)). We held that the FAAA did not
preempt California’s meal and rest break requirements as applied to the interstate trucking industry.
In our opinion, we wrote that “Congress did not intend
to preempt generally applicable state transportation,
safety, welfare, or business rules that do not otherwise
regulate prices, routes, or services.” Id. at 644. Moreover, an increase in cost associated with compliance

21a
was not sufficient to show a relation to prices, routes,
or services. Id. at 646.
The language of the ADA’s preemption clause is
virtually identical to the language of the FAAA’s. The
reasoning of Dilts thus applies with equal force here.
Just as the FAAA did not preempt California’s meal
and rest break requirements as applied to the trucking industry, the ADA does not preempt those
requirements as applied to the airline industry.
ii. Application
After establishing that California’s meal and rest
break requirements are not preempted, we next address whether these requirements apply to the work
performed by the Class and Subclass under California
law. Extrapolating the principles of Sullivan, we hold
that they do.
In Sullivan, the California Supreme Court emphasized the California Legislature’s public policy
goals in the context of California’s overtime statute.
Among these goals was “protecting employees in a relatively weak bargaining position from the evils
associated with overwork[.]” 254 P.3d at 241. Based
on this state policy, and others, the California Supreme Court held that “[t]o exclude non-residents
from the overtime laws’ protection would tend to defeat their purpose by encouraging employers to import
unprotected workers from other states,” and that
“[n]othing in the language or history of the relevant
statutes suggests the Legislature ever contemplated
such a result.” Id. at 242. The California Supreme
Court concluded that application of the overtime statute to non-residents, as well as residents, was the only
feasible way “to reconcile with the Legislature’s express declaration that ‘all protections, rights, and

22a
remedies available under state law are available to all
individuals who are or who have been employed, in
this state.’” Id. (quoting Cal. Lab. Code § 1171.5(a) (alterations omitted)).
We hold that policy similarly dictates application
of California’s meal and rest break requirements to
both the Class and Subclass. Like overtime pay, meal
and rest break requirements are designed to prevent
“the evils associated with overwork,” mandating that
employers treat employees humanely even when employees have been unable to bargain for that
contractual right. Thus, like overtime pay, meal and
rest break requirements applied to Virgin’s relationship with both the Class and Subclass. Virgin’s
opening brief does not contend that it complied with
California’s meal and rest break requirements. We
thus affirm the district court’s summary judgment to
Plaintiffs on these claims.
d. Wage statements
California Labor Code § 226(a) states:
An employer, semimonthly or at the time of
each payment of wages, shall furnish to his or
her employee . . . an accurate itemized statement in writing showing (1) gross wages
earned, (2) total hours worked by the employee . . . , (3) the number of piece-rate units
earned and any applicable piece rate if the employee is paid on a piece-rate basis, (4) all
deductions, . . . (5) net wages earned, (6) the
inclusive dates of the period for which the employee is paid, (7) the name of the employee
and only the last four digits of his or her social
security number or an employee identification
number . . . , (8) the name and address of the

23a
legal entity that is the employer . . . , and (9)
all applicable hourly rates in effect during the
pay period and the corresponding number of
hours worked at each hourly rate by the employee[.]
The California Supreme Court has determined
that § 226 applies to workers who “perform the majority of their work in California; but if they do not
perform the majority of their work in any one state,
they will be covered if they are based for work purposes in California.” Ward, 466 P.3d at 321.
Ward controls here. According to Virgin’s expert,
“class members collectively worked only 31.5% of their
time in California.” There is, however, no evidence
that the class members performed “the majority of
their work in any one state,” and, indeed, the record
compels the inference that if Plaintiffs did not work in
California for a majority of their time, they did not do
so in any state.
Furthermore, Virgin itself classified all Plaintiffs
in this action as being California-based. Virgin somewhat speciously contends that when it classified
Plaintiffs as California-based, it meant that term in a
different sense than the Ward court used it. This argument is unavailing. The court in Ward wrote, “the
Legislature intended for section 226 to apply to workers whose work is not performed predominantly in any
one state, provided that California is the state that
has the most significant relationship to the work.” Id.
Thus, the California Supreme Court “conclude[d] this
principle will be satisfied if the worker performs some
work here and is based in California, meaning that
California serves as the physical location where the
worker presents himself or herself to begin work.” Id.

24a
Virgin’s argument hinges on the final sentence—it asserts that many plaintiffs did not “present”
themselves to “begin work” in California because
Plaintiffs’ pairings began and ended outside the state.
Virgin’s argument fails for two reasons. First,
Ward makes clear that presentation in California to
begin work is one way in which a plaintiff might be
based in California; it is not the only way. Id. (holding
that the principle behind § 226 “will be satisfied if” it
applies to the class of workers who present themselves
to begin work in California, not that it cannot apply
under other circumstances). Second, Virgin’s argument misses the point of the Ward test, which serves
to approximate whether California’s “relationship to
the work is more significant than any other state’s.”
Ward, 466 P.3d at 323. The fact that Virgin’s only employee base was in California and all of its flight crew
were “based” there means that, so long as plaintiffs
performed at least some work there, California had
the strongest ties to the employment relationship of
any state. Thus, under Ward, § 226 applies to Virgin.
Virgin’s opening brief does not contend that it complied with § 226. We therefore affirm the district
court’s summary judgment to Plaintiffs on their wage
statement claim.
e. Waiting time penalties
California Labor Code § 201(a) states, “If an employer discharges an employee, the wages earned and
unpaid at the time of discharge are due and payable
immediately.” Section 202(a) further provides, “If an
employee not having a written contract for a definite
period quits his or her employment, his or her wages
shall become due and payable not later than 72 hours
thereafter, unless the employee has given 72 hours

25a
previous notice of his or her intention to quit, in which
case the employee is entitled to his or her wages at the
time of quitting.” Section 203 sets forth penalties for
failure to comply with §§ 201 and 202.
Although there is no California Supreme Court
case specifically interpreting the reach of the waiting
time penalties statute for interstate employers, we
find an analogy to § 226 compelling. Both the waiting
time penalties and the wage statement requirements
pertain to a tangible object that the employer must
give to the employee. Both requirements are technical
in nature: section 226 specifies the information a wage
statement must contain, and the waiting time penalties specify the time in which an employer must remit
an employee’s wages after separation from employment. Thus, using Ward’s language, the “kinds of
California connections” that “will suffice to trigger
the” two provisions are the same. See Ward, 466 P.3d
at 319. Because the California Supreme Court held
§ 226 to apply under these circumstances, we hold
that §§ 201 and 202 apply as well. Virgin’s opening
brief does not dispute that it failed to comply with
§§ 201 and 202. Consequently, we affirm the district
court’s summary judgment to Plaintiffs on their waiting time penalties claim.
C.
Pursuant to Federal Rule of Civil Procedure 23, a
class may be certified if “the class is so numerous that
joinder of all members is impracticable”; “there are
questions of law or fact common to the class”; “the
claims or defenses” of the named plaintiffs are typical
of those of the class; and the named plaintiffs “will
fairly and adequately protect the interests of the
class.” Fed. R. Civ. P. 23(a)(1)–(4). Additionally,

26a
Plaintiffs must show that “questions of law or fact
common to class members predominate” over individual questions, “and that a class action is superior to
other available methods for fairly and efficiently adjudicating the controversy.” Fed. R. Civ. P. 23(b)(3). Of
these requirements, Virgin challenges only the last:
that class adjudication is the superior method. Virgin
claims that class adjudication is inappropriate because choice-of-law analyses will be required for each
plaintiff. Pursuant to our analysis, the applicability of
California law has been adjudicated on a class-wide or
subclass-wide basis, and thus no individual choice-oflaw analysis is necessary. We affirm the district
court’s decision on class certification.
D.
Finally, we consider whether the district court
correctly held that Virgin was subject to heightened
penalties for subsequent violations under PAGA.
PAGA permits individuals to sue their employers to
recover penalties to which they are entitled under the
Labor Code. Cal. Lab. Code § 2699(a). Where the section violated does not indicate the amount of the
penalty for its violation, PAGA fixes the penalty at
$100 “for each aggrieved employee per pay period for
the initial violation,” and $200 “for each aggrieved employee per pay period for each subsequent violation.”
Id. § 2699(f)(2).
Under California law, “[a] good faith dispute” that
an employer is required to comply with a particular
law “will preclude imposition” of heightened penalties.
Amaral v. Cintas Corp. No. 2, 78 Cal. Rptr. 3d 572,
607 (Ct. App. 2008). “A ‘good faith dispute’ . . . occurs
when an employer presents a defense, based in law or
fact which, if successful, would preclude any

27a
recover[y] on the part of the employee.” Id. “Until the
employer has been notified that it is violating a Labor
Code provision (whether or not the [Labor] Commissioner or court chooses to impose penalties), the
employer cannot be presumed to be aware that its continuing underpayment of employees is a ‘violation’
subject to penalties.” Id. at 614.
Virgin was not notified by the Labor Commissioner or any court that it was subject to the California
Labor Code until the district court partially granted
Plaintiffs’ motion for summary judgment. On this basis, we reverse the district court’s holding that Virgin
is subject to heightened penalties for any labor code
violation that occurred prior to that point.
E.
Since we reverse in part the district court’s judgment on the merits, California law requires that we
vacate the attorney’s fees and costs award “because we
cannot say with certainty that the [district] court
would exercise its discretion the same way” had Plaintiffs not prevailed on virtually all of their claims.
Ventas Finance I, LLC v. Franchise Tax Bd., 81 Cal.
Rptr. 3d 823, 844 (Ct. App. 2008). We therefore vacate
the district court’s order awarding fees and costs to
Plaintiffs’ counsel, and we remand the issue of attorney’s fees and costs to the district court.
CONCLUSION
In sum, we affirm the district court’s summary
judgment to Plaintiffs on their claims for overtime
(§ 510); for violation of meal and rest break requirements (§§ 226.7, 512); for wage statement deficiencies
(§ 226); and for waiting time penalties (§§ 201 and
202). We also affirm the district court’s decision on

28a
class certification. We reverse the district court’s summary judgment to Plaintiffs on their claims for
minimum wage (§ 1182.12); for payment for each hour
worked (§ 204); and for heightened penalties for subsequent violations under PAGA. We vacate the
district court’s order granting attorney’s fees and costs
to Plaintiffs, and we remand for further proceedings
consistent with this opinion.
AFFIRMED IN PART, REVERSED IN PART,
VACATED IN PART.

29a
APPENDIX B
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
____________
No. 15-cv-02277-JST
____________
JULIA BERNSTEIN, et al.,
Plaintiffs
v.
VIRGIN AMERICA, INC.,
Defendant
____________

ORDER REGARDING MOTION FOR SUMMARY JUDGMENT
Before the Court is Defendant Virgin America’s
motion for summary judgment. ECF No. 97. The
Court will deny the motion in part and grant the motion in part.
I.

BACKGROUND

The Plaintiffs are flight attendants who currently
work or have previously worked for Defendant Virgin
America, Inc. (“Virgin”). In this class action against
Virgin, the Plaintiffs allege that Virgin did not pay
them for hours worked before, after, and between
flights; time spent in training; time on reserve; time
spent taking mandatory drug tests; and time spent
completing incident reports. See First Amended Class
Action Complaint, ECF No. 32 ¶¶ 28˗41. The Plaintiffs

30a
further allege that Virgin did not allow flight attendants to take meal or rest breaks, failed to pay overtime
and minimum wages, and failed to provide accurate
wage statements. Id.
A. Factual Summary
1. The Parties
Virgin is an airline company that is headquartered in Burlingame, California. Depo. of Valerie
Jenkins, ECF No. 44-1 at 71:4.1 Virgin trains its flight
attendants in California, and it has received millions
of dollars from the State of California to do so. ECF
No. 101, Exs. 1-11. Many of Virgin’s flights either arrive to or depart from a California airport. ECF No.
101-13. In fact, Virgin estimates that, since 2011, the
average daily number of its flights that depart from a
California airport has never been less than 88.6 percent. ECF No. 101-26 at 9.
Plaintiffs Julia Bernstein, Esther Garcia, and
Lisa Marie all previously worked for or currently work
for Virgin as flight attendants. ECF No. 50-17, Exs.
23-25. Each of the Plaintiffs provided Virgin with a
California address and each of the Plaintiffs were
based out of either San Francisco International Airport or Los Angeles International Airport during the
course of their employment with Virgin. Id. The Plaintiffs’ flight schedules show that they sometimes
worked entire days on consecutive flights between
California airports. See ECF No. 101-17.

Throughout this Order, the Court refers to the pagination
created by the Court’s electronic filing system, not the document’s internal pagination.
1

31a
2. Flight
Attendant
Scheduling
Terminology and Responsibilities
Virgin schedules its flight attendants to fly “pairings,” a series of flights over a series of continuous
days that depart and return to the airport out of which
flight attendants are based. ECF No. 44-1, Ex. 1 at
4:10-16; ECF No. 44-1, Ex. 2 at 59:6-13. Each pairing
consists of one or more “duty periods.” ECF No. 44-1,
Ex. 1 at 5:18-25. Virgin’s Work Rules require that each
flight attendant report for duty one hour before the
departure of her first scheduled flight of the day. ECF
No. 45-2, Ex. 8 at 31. After they check in for duty,
flight attendants must travel to the departure gate of
their first flight and be onboard the flight no less than
forty-five minutes before the scheduled departure.
ECF No. 46-2 at 18. They must also attend two preflight briefings, greet and assist passengers in boarding, and generally prepare the cabin for departure.
ECF No. 47-2 at 131-134; ECF No. 47-2 at 143-146.
“Block time” is the amount of time within a duty period from when an aircraft pushes back from the gate
(“block out”) at its departure city to when the aircraft
arrives at the gate (“block in”) at its destination. ECF
No. 50-2 at 6:11-21, 8:13-21. Once the flight arrives at
its destination, flight attendants help passengers deplane and check the cabin for items left onboard. ECF
No. 47-2 at 177. Flight attendants are not released
from duty until fifteen minutes after their last scheduled flight of the day. ECF No. 45-3 at 2. Sometimes a
flight attendant will need to travel as a passenger on
a flight to arrive at an airport for an assigned flight.
This time spent traveling is referred to as “deadheading.”
When a flight attendant works a subsequent flight
in a duty period, the time between the block in of the

32a
first flight and block out of the second flight is referred
to as “turn time.” As with the first flight of the day,
flight attendants must report for duty at the second
flight’s departure gate and be onboard that flight
forty-five minutes before the scheduled departure.
ECF 47-2 at 129. Flight attendants remain on duty
during turn time. ECF No. 44-1 at 93:13-20.
3. Virgin’s
Policies
Regarding
Compensation and Breaks
Virgin’s InFlight Work Rules outline its detailed
compensation policies for flight attendants. ECF Nos.
45-46, Exs. 8, 9, 10. And Virgin’s Crew Pay Manual is
used by Virgin’s payroll department to process flight
attendant compensation. ECF No. 47-3, Ex. 12.
Pursuant to those policies, Virgin uses a creditbased system to compensate its flight attendants.
ECF No. 45-4 at 12-13. That system does not directly
compensate flight attendants for all hours on duty.
ECF No. 47-3 at 8 (“Even for flying activity, crewmembers are not paid for time ‘on the clock’ (duty time);
instead, they are typically paid only when the aircraft
is moving (block time).”). Flight attendants receive an
hour of credit for each hour of block time, fifty percent
of block time for time spent deadheading, and a minimum of 3.5 hours of “minimum duty period credit” for
duty periods in which the flight attendant does not
earn at least 3.5 hours of credit from block time and/or
deadheading. ECF No. 45-4 at 12-13. Virgin’s system
does not directly compensate duty hours that do not
fall into one of these three categories (e.g. pre- and
post-block duty time and turn time between flights).
See id.
Virgin does, however, pay flat rates for some nonflight activities. For example, it pays flight attendants

33a
thirty minutes of pay for drug testing, regardless of
the duration of the drug test. ECF No. 47-5 at 7. Virgin also pays a flat monthly rate for initial flight
attendant training, irrespective of the actual hours
worked by flight attendants during this training. ECF
No. 45-4 at 24. Virgin pays flight attendants 3.5 hours
of pay for annual training even though those trainings
last at least eight hours. ECF No. 45-4 at 16; ECF No.
101-20 at 2; see also, e.g., ECF No. 50-17 ¶ 22. Virgin
pays flight attendants four hours of pay for airport reserve shifts in which they are not assigned to a flight,
even though those shifts can last up to six hours. ECF
No. 47-5 at 9. If a flight attendant is assigned a flight
during their reserve shift, they are paid for half of the
total time spent on reserve plus that flight’s block
time. Id. Virgin’s compensation policy does not provide
credit for time spent completing incident reports,
which Plaintiffs testify they were unable to complete
during time for which they are compensated due to
their job duties (e.g. block time). ECF No. 50-17 ¶ 16.
Per Virgin’s policies, crew leaders provide rest and
meal periods for flight attendants. ECF No. 50-13 at
22. However, Virgin admits that, although its flight
attendants have the opportunity to take breaks, they
are still on duty throughout the entirety of a flight.
ECF No. 71 at 15; ECF No. 44-1 at 96:1-6. Many flight
attendants claim that they are unable to take breaks
on flights. See, e.g., ECF No. 50-17, Ex. 23, ¶ 18. Approximately one-third of Virgin’s daily flights since
2011 have been longer than five hours in duration.
ECF No. 101-26 at 6-8.
Virgin’s wage statements do not indicate the duty
period hours worked or the block hours worked. ECF
No. 50-2, Ex. 1 at 34:19-21, 36:17-24; ECF No. 101-23,
101-24, 101-25.

34a
B. Procedural History
The Plaintiffs commenced this action in state
court, and Virgin removed it to federal court pursuant
to the diversity jurisdiction provision of the Class Action Fairness Act (“CAFA”). ECF No. 1.
Plaintiffs bring claims under the California Labor
Code and California Industrial Welfare Commission
Wage Order 9-2001 (“Wage Order”) for failure to pay
minimum wage, failure to pay overtime wages, failure
to pay wages for all hours worked, failure to provide
required meal periods, failure to provide required rest
periods, failure to provide accurate wage statements,
failure to pay waiting time penalties to discharged employees, failure to indemnify all necessary business
expenditures, and derivative claims under California’s Unfair Competition Law (“UCL”) and the Private
Attorney General Act (“PAGA”). ECF No. 32.
On November 7, 2016, this Court certified the following Class and Subclasses under Rule 23(b)(3):
Class: All individuals who have worked as
California-based flight attendants of Virgin
America, Inc. at any time during the period
from March 18, 2011 (four years from the filing of the original Complaint) through the
date established by the Court for notice of certification of the Class (the “Class Period”).
California Resident Subclass: All individuals who have worked as California-based
flight attendants of Virgin America, Inc. while
residing in California at any time during the
Class Period.
Waiting Time Penalties Subclass: All individuals who have worked as California-based

35a
flight attendants of Virgin America, Inc. and
have separated from their employment at any
time since March 18, 2012.
See ECF No. 104. The Class claims are limited to time
worked within California. ECF No. 70 at 10. However,
both the California Resident Subclass and the Waiting
Time Penalties Subclass seek to recover wages for
time spent working within and outside California. Id.
Virgin now moves for summary judgment. ECF
No. 97.
II. JURISDICTION
Pursuant to the Class Action Fairness Act
(“CAFA”), the Court has jurisdiction over this case, as
a class action in which a member of the class of plaintiffs is a citizen of a state different from any
defendant, there are more than 100 class members nationwide, and the matter in controversy exceeds the
sum of $5 million, exclusive of interests and costs. 28
U.S.C. § 1332(d).
III. LEGAL STANDARD
Summary judgment is proper when a “movant
shows that there is no genuine dispute as to any material fact and the movant is entitled to judgment as a
matter of law.” Fed. R. Civ. P. 56(a). “A party asserting
that a fact cannot be or is genuinely disputed must
support the assertion by” citing to depositions, documents, affidavits, or other materials. Fed. R. Civ. P.
56(c)(1)(a). A party also may show that such materials
“do not establish the absence or presence of a genuine
dispute, or that an adverse party cannot produce admissible evidence to support the fact.” Fed. R. Civ. P.
56(c)(1)(B). An issue is “genuine” only if there is sufficient evidence for a reasonable fact-finder to find for

36a
the non-moving party. Anderson v. Liberty Lobby,
Inc., 477 U.S. 242, 248¬49 (1986). A fact is “material”
if the fact may affect the outcome of the case. Id. at
248. “In considering a motion for summary judgment,
the court may not weigh the evidence or make credibility determinations, and is required to draw all
inferences in a light most favorable to the non-moving
party. Freeman v. Arpaio, 125 F.3d 732, 735 (9th Cir.
1997).
Where the party moving for summary judgment
would bear the burden of proof at trial, that party
bears the initial burden of producing evidence that
would entitle it to a directed verdict if uncontroverted
at trial. See C.A.R. Transp. Brokerage Co. v. Darden
Rests, Inc., 213 F.3d 474, 480 (9th Cir. 2000). Where
the party moving for summary judgment would not
bear the burden of proof at trial, that party bears the
initial burden of either producing evidence that negates an essential element of the non-moving party’s
claim, or showing that the non-moving party does not
have enough evidence of an essential element to carry
its ultimate burden of persuasion at trial. If the moving party satisfies its initial burden of production,
then the non-moving party must produce admissible
evidence to show that a genuine issue of material fact
exists. See Nissan Fire & Marine Ins. Co. v. Fritz Cos.,
210 F.3d 1099, 1102-03 (9th Cir. 2000). The non-moving party must “identify with reasonable particularity
the evidence that precludes summary judgment.” Keenan v. Allan, 91 F.3d 1275, 1279 (9th Cir. 1996).
Indeed, it is not the duty of the district court “to scour
the record in search of a genuine issue of triable fact.”
Id. “A mere scintilla of evidence will not be sufficient
to defeat a properly supported motion for summary
judgment; rather, the non-moving party must

37a
introduce some significant probative evidence tending
to support the complaint.” Summers v. Teichert &
Son, Inc., 127 F.3d 1150, 1152 (9th Cir. 1997) (citation
and internal quotations omitted). If the non-moving
party fails to make this showing, the moving party is
entitled to summary judgment. Celotex Corp. v.
Catrett, 477 U.S. 317, 323 (1986).
IV. ANALYSIS
Virgin argues that applying California labor law
to the Plaintiffs’ employment would violate both the
presumption against extraterritorial application and
the Dormant Commerce Clause. Virgin further argues
that the Plaintiffs’ meal and rest break claims are
preempted by the Federal Aviation Act and the Airline
Deregulation Act. Finally, Virgin argues that, even if
California law applies, Virgin’s policies and practices
comply with California law and the Plaintiffs have
failed to present sufficient evidence to prevail on their
claims.
A. Application of California’s Labor Laws
1. Job Situs is Not Dispositive
As it did when opposing class certification, Virgin
again argues that California labor law does not protect the Plaintiffs because they do not work
“exclusively or principally” in California, but rather
across “multiple jurisdictions” and “in the federally
regulated airspace.” ECF No. 97 at 19-22. Virgin
claims that this “job situs” test is “determinative.” Id.
The Court again rejects Virgin’s singular emphasis on job situs as the dispositive factor to determine
whether California’s wage and hour laws apply to
Plaintiffs. See ECF No. 104 at 14–17. As explained at

38a
length in the class certification order, Virgin’s position
lacks relevant support in the case law. See id.
Virgin relies primarily on Tidewater Marine W.,
Inc. v. Bradshaw, 14 Cal. 4th 557, 577 (1996) for the
proposition that an employee must work “exclusively
or principally” in California to benefit from California
law. See id. But that is not what Tidewater says. The
Tidewater court simply explained that an employee
who “resides in California, receives pay in California,
and works exclusively, or principally, in California,”
presumptively enjoys the protections of California’s
wage orders. Tidewater, 14 Cal. 4th at 578. That court
did not hold that an employee must necessarily satisfy
all three of those conditions to be protected by California law. See id. In fact, because the Tidewater court
ultimately found that the plaintiffs worked within
California’s territorial boundaries, it “express[ed] no
opinion as to whether the trial court can enjoin the
application of IWC wage orders to crew members who
work primarily outside California’s state law boundaries.” Tidewater, 14 Cal. 4th at 578-79. The Court also
left room for the possibility that California’s labor
laws may apply extraterritorially “in limited circumstances, such as when California residents working
for a California employer travel temporarily outside
the state during the course of the normal workday but
return to California at the end of the day.” Id. at 57778. Despite the Tidewater court’s explicit refusal to
decide the precise issue presented here, Virgin relies
on that case to argue that Plaintiffs’ can only enjoy the
protections of the California Labor Code if they
worked exclusively or principally in California. Tidewater simply cannot bear the weight Virgin asks of it.
Lacking sufficient support from the California Supreme Court, Virgin again turns to three federal

39a
district court cases to find support for its dispositive
“job situs” test. Because the Court has already explained at length why those cases are factually
distinguishable and legally erroneous, it does not address them again here. See ECF No. 104 at 14–17.
Instead of considering principal “job situs” in a
vacuum, the California Supreme Court has endorsed
a multi-faceted approach. The California Supreme
Court’s later decision in Sullivan confirms that the
three factors listed in Tidewater ‒ i.e. California residency, receipt of pay in California, and exclusive or
principal “job situs” in California ‒ are sufficient, but
not necessary, conditions for an individual to benefit
from the protections of California law. After all, the
Sullivan court’s central holding was that non-residents (who do not presumptively enjoy the protections
of California’s labor laws) are nonetheless protected
by those laws in certain circumstances. Sullivan, 51
Cal. 4th at 1194. The court also suggested that other
factors were relevant to this inquiry, such as the employer’s residency and whether the employee’s
absence from the state was temporary in nature. See
id. at 1199–1200 (“California law . . . might follow California resident employees of California employers
who leave the state ‘temporarily . . . during the course
of the normal workday’ . . . [n]othing in Tidewater suggests a nonresident employee, especially a nonresident
employee of a California employer such as Oracle, can
enter the state for entire days or weeks without the
protection of California law.”) (emphasis added). Sullivan therefore flatly rejects the simplistic test
proposed by Virgin.
This multi-faceted approach is consistent with
California’s strong public policy of protecting its workers. The Sullivan court stressed that the wage and

40a
hour laws “serve important public policy goals” and
therefore they should be applied in a way that would
not encourage employers to evade the law. Sullivan,
51 Cal. 4th at 1198. On another occasion, the California Supreme Court explained that “in light of the
remedial nature of the legislative enactments authorizing the regulation of wages, hours and working
conditions for the protection and benefit of employees,
the statutory provisions are to be liberally construed
with an eye to promoting such protection.” Indus. Welfare Com. v. Superior Court, 27 Cal. 3d 690, 702
(1980).
As applied to this case, the Court finds that Plaintiffs’ and Virgin’s significant connections to California
are also relevant considerations when determining
whether to apply California’s wage and hour laws. The
Plaintiffs were California residents2 who received
their pay in California and, therefore, they satisfy two
of the three elements to presumptively enjoy the protections of California law under Tidewater. In
addition, Virgin is a California-based airline with its
headquarters in California. See Sullivan, 51 Cal. 4th
at 1200 (suggesting that the employer’s residency is
relevant to the application of California law). The
Plaintiffs have presented evidence that Virgin has received millions of dollars in state subsidies to train all
of its flight attendants in California. See ECF No. 101,
Exs. 3–7. And the Plaintiffs’ expert calculates that,
since 2011, between 88 and 99 percent of Virgin’s
Although Virgin disputes whether Bernstein was actually
living in California, see ECF No. 97 at 21, n. 23, the fact that she
provided a California address for payroll and tax purposes in
2011 is sufficient to create a triable factual issue regarding her
residency
2

41a
flights each day either departed from or arrived in a
California airport. ECF No. 101–38, ¶¶ 3–4. The parties’ deep ties to California can hardly be described as
“minor considerations” for a court determining
whether to apply California law. ECF No. 97 at 19-22.
And, although the Plaintiffs spent just around a quarter of their total work time in California, that
consideration is relatively less important where, as
here, temporary out-of-state travel is an inherent part
of their job. Tidewater, 14 Cal. 4th at 577–78 (distinguishing temporary out-of-state travel).
Given Virgin’s thin precedential support for its position that “job situs” is determinative, the other
compelling considerations present in this case, and
California’s strong public policy of protecting its workers, the Court concludes that the Plaintiffs are not
barred from asserting claims under California’s wage
and hour laws simply because they did not work exclusively or principally in California.
2. The California Labor Code Applies to
Work Performed in California and
Wrongful Conduct that Occurred in
California
Virgin also argues that the Plaintiffs cannot seek
protection of the California Labor Code for work that
they performed outside of the state due to the presumption against the extraterritorial application of
California law. See ECF No. 97 at 19.
At the outset, it is important to stress that many
of the Plaintiffs’ claims relate to work performed
within California’s borders to which California law
clearly applies. For example, one of the Plaintiffs’ primary allegations is that they were not paid for time
spent working before takeoff and after landing in

42a
California airports.3 ECF No. 32 ¶¶ 31, 46. The Plaintiffs further allege that they were not paid for time
spent in training and on reserve shifts that occurred
in California. Id. ¶¶ 23-26, 35, 46. Virgin does not seriously dispute that such “non-flight activities
exclusively preformed [sic] in California might be subject to California law.” ECF No. 107 at 9, n. 8.4 Nor
could it.
Both the plain terms of the California Labor Code
and California Supreme Court precedent confirm that
the California Labor Code applies to work performed
in California. The preamble to California’s Labor Code
provides that its protections “are available to all individuals . . . who have applied for employment, or who
are or who have been employed, in this state.” Cal.
Lab. Code § 1171.5(a).5 The specific Labor Code provisions at issue in this case similarly apply to all work
performed in California. See, e.g., Cal. Lab. Code

The Plaintiffs’ expert report shows that at least 88 percent
of Virgin’s flights each day either arrived at or departed from
California airports. ECF No. 101–38, ¶¶ 3–4. In some years, this
percentage reached 99 percent. Id.
3

Although Virgin appears to concede this point as a matter
of legal “theory,” it nonetheless argues that the Plaintiffs have
not provided sufficient evidence to prevail on such a theory in
this particular case (i.e. because they have not shown that they
worked enough hours in California to trigger overtime protections). See id. The Court addresses these alleged factual
shortcomings later in its order.
4

Although the original impetus for § 1171.5 was to extend
protections to non-resident, undocumented workers in California, the provision has a broader reach because it was “codified as
a general preamble to the wage law” and it “broadly refers to ‘all
individuals’ employed in the state.” Sullivan, 51 Cal. 4th at 119798, n. 3.
5

43a
§ 1174 (“Every person employing labor in this state
shall . . . “) (emphasis added).
Based on this clear statutory text, the California
Supreme Court has concluded that California’s overtime laws “speak broadly” to “regulate all nonexempt
overtime work within its borders.” Sullivan v. Oracle
Corp., 51 Cal. 4th 1191, 1197-98 (2011) (emphasis
added) (“California’s overtime laws apply by their
terms to all employment in the state.”); Sullivan v. Oracle Corp. (“Sullivan II”), 662 F.3d 1265, 1271 (9th
Cir. 2011) (“California applies its Labor Code equally
to work performed in California, whether that work is
performed by California residents or by out-of-state
residents.”) (emphasis added). This is true even if the
individual seeking the protection of California law
“worked mainly” in other states. See Sullivan, 51 Cal.
4th at 1197, 1194-95 (holding that California overtime
laws applied to plaintiff’s work performed in California even though he spent just twenty days working in
California during a three-year period); Wright v. Adventures Rolling Cross Country, Inc., No. C-12-0982EMC at *5-6 (N.D. Cal., May 3, 2012) (holding at the
motion to dismiss stage that “Plaintiffs do have viable
state law claims based on their work done in California,” such as training, even though they did most of
their work abroad as international trip leaders). The
Court therefore concludes that California’s labor laws
apply to the work performed by the Plaintiffs in California.
Still, the Plaintiffs must overcome the presumption against extraterritorial application to the extent
they seek to recover based on work performed outside
of California. California law presumptively does not
apply to conduct that occurs outside of California. See
N. Alaska Salmon Co. v. Pillsbury, 174 Cal. 1, 4 (1916)

44a
(internal quotation marks omitted) (“Ordinarily, the
statutes of a state have no force beyond its boundaries.”). To overcome that presumption, the Plaintiffs
must show that a contrary intent “is clearly expressed
or reasonably to be inferred from the language of the
act or from its purpose, subject-matter, or history.” Id.
Instead of trying to overcome the presumption by
pointing to the relevant statutory language or legislative history, Plaintiffs seek to avoid the presumption
against extraterritorial application altogether by arguing that the alleged wrongful conduct giving rise to
liability occurred within California. See ECF No. 102
at 18. The Plaintiffs argue that, “even if a presumption against extraterritorial application applies
generally to the Labor Code,” the Court must still
“consider whether plaintiffs’ proposed application of
the [law] would cause it to operate, impermissibly,
with respect to occurrences outside the state.” Id.
(quoting Sullivan, 51 Cal. 4th at 1207). The Plaintiffs
claim that the wrongful conduct alleged here occurred
in California because Virgin is headquartered in California, Virgin oversees its flight attendants and
issues payroll from California, the Plaintiffs are California residents who were based out of California
airports, and the Plaintiffs performed at least some of
their work in California on most workdays. ECF No.
102 at 19.
Even if the presumption against extraterritorial
application applies to a particular statute, the court
must still consider “whether plaintiffs’ proposed application of the [law] would cause it to operate,
impermissibly, with respect to occurrences outside the
state.” Sullivan, 51 Cal. 4th at 1207; see also, e.g.,
Leibman v. Prupes, No. 2:14-CV-09003-CAS (VBKx),
2015 U.S. Dist. LEXIS 80101, at *15-18 (C.D. Cal.

45a
June 18, 2015) (“assuming arguendo that the presumption [against extraterritorial application]
applies to common law claims,” but holding that the
plaintiff’s “claims do not constitute improper extraterritorial application of California law” because “the
actions which gave rise to liability” occurred in California). This inquiry is necessary because the
presumption against extraterritorial application does
not bar the application of California law to wrongful
conduct that occurs within California. Diamond Multimedia Sys., Inc. v. Superior Court, 19 Cal. 4th 1036,
1059 (1999) (“The presumption [against extraterritorial application] has never been applied to an injured
person’s right to recover damages suffered as a result
of an unlawful act or omission committed in California.”); Aguilar v. Zep Inc., No. 13-CV-00563-WHO,
2014 WL 4245988, at *11 (N.D. Cal. Aug. 27, 2014)
(“[E]xtraterritorial application of California law is not
barred where the alleged wrongful conduct occurred
in California.”).
To determine whether a state law is being applied
extraterritorially, courts consider “whether ‘the conduct which gives rise to liability . . . occurs in
California.’” Leibman v. Prupes, No. 2:14-CV-09003CAS, 2015 U.S. Dist. LEXIS 80101, at *15–17 (C.D.
Cal. June 18, 2015) (emphasis in original) (quoting Diamond Multimedia, 19 Cal. 4th at 1059). For example,
the presumption against extraterritoriality did not
bar the plaintiff’s breach of contract claim where “the
actions which gave rise to liability - that is, the alleged
breach - occurred in California” when the business
manager made the “‘core decision’ to wrongfully terminate [the plaintiff]” and terminated the plaintiff via
email from his business in California. No. 2:14-CV09003-CAS, 2015 U.S. Dist. LEXIS 80101, at *17–18

46a
(C.D. Cal. June 18, 2015). Similarly, the presumption
against extraterritorial application did not bar the
out-of-state plaintiffs’ consumer protection and false
advertising claims under California law where the
plaintiffs “alleged that [defendant’s] purportedly misleading marketing, promotional activities and
literature were coordinated at, emanate from and are
developed at its California headquarters, and that all
‘critical decisions’ regarding marketing and advertising were made within the state.” In re iPhone 4S
Consumer Litig., No. C 12-1127 CW, 2013 U.S. Dist.
LEXIS 103058, at *23-24 (N.D. Cal. July 23, 2013).
Likewise, there was no extraterritorial application of
California’s consumer protection statutes where the
plaintiffs alleged “that the misrepresentations were
developed in California, contained on websites and an
application that are maintained in California, and
that billing and payment of services went through
servers located in California.” Ehret v. Uber Techs.,
Inc., 68 F. Supp. 3d 1121, 1132 (N.D. Cal. 2014).
Therefore, the key question is whether the alleged
wrongful conduct that gave rise to liability occurred
within California. If so, the presumption against extraterritorial application does not apply.
The Court concludes that the wrongful conduct
giving rise to liability occurred in California such that
the Plaintiffs’ claims do not constitute an attempt to
apply the law to occurrences outside of the state.
Plaintiffs challenge Virgin’s centrally devised compensation policies, such as its policies of not
compensating flight attendants for non-block duty
time and paying flat rates for drug testing and training activities. See generally ECF No. 32; ECF Nos. 45,
46, 47–3 (outlining Virgin’s detailed compensation
policies for flight attendants). As in the above cases,

47a
Virgin made these critical decisions regarding how it
would pay its flight attendants, and proceeded to pay
its flight attendants in accordance with those decisions, from its headquarters in Burlingame,
California. Therefore, the very actions giving rise to
potential liability ‒ that is, the failure to pay for all
hours worked, the failure to pay overtime, the failure
to provide accurate wage statements, and the failure
to pay waiting time penalties to discharged employees
‒ occurred in California. Because the Plaintiffs’ proposed application of the law would not impermissibly
operate to reach conduct occurring outside of the
state, the presumption against extraterritorial application does not apply and the Plaintiffs do not have to
overcome it.
The only wrongful conduct that could have potentially occurred outside of California, at least in some
instances, is Virgin’s alleged failure to provide meal
periods and rest breaks. Virgin does not have a centralized policy regarding the provision of such breaks;
instead, Virgin’s policies simply provide that team
leaders are responsible for scheduling breaks for flight
attendants. ECF No. 50–13 at 22. Therefore, any failure to provide meal and rest breaks did not originate
at Virgin’s headquarters in California, but rather occurred wherever the flight attendant was deprived of
that break. In some instances, the Plaintiffs might
have been deprived of such breaks outside of California, for example while they were working on flights
between California and the East coast. See id. ¶ 23. To
the extent the Plaintiffs seek to recover for such break
violations that occurred outside of California, they
must overcome the presumption against extraterritorial application. Because the Plaintiffs have not

48a
attempted to do so, they cannot recover for that extraterritorial conduct under California law.
However, the Court nonetheless declines to grant
summary judgment to Virgin on the meal and rest
break claims because there is sufficient evidence that
the Plaintiffs were deprived of at least some of those
breaks while working in California. See ECF No. 101–
17 at 2 (showing days on which Plaintiffs Esther Garcia and Lisa Smith flew back and forth between Los
Angeles, San Francisco, and San Diego); ECF No. 98–
2 at 6–7 (concluding that the Plaintiffs were sometimes eligible for meal periods or rest breaks based on
the length of their pairings); ECF No. 50–17, ¶¶ 18–
19 (Plaintiff Bernstein declaring that she “cannot remember ever being encouraged or directed to take a
break or meal period” and that she does not remember
taking a meal period during turn time between
flights). Therefore, the Court cannot conclude as a
matter of law that the break claims solely involve extraterritorial conduct such that California law may
not apply to those claims. Aguilar, 2014 WL 4245988,
at *12 (“Summary judgment is not proper to the extent
[plaintiff] can prove that [defendant] violated California laws relating to work that he performed within
California.”).
B. Dormant Commerce Clause
Second, Virgin argues that requiring it to comply
with California’s labor laws would violate the
Dormant Commerce Clause. ECF No. 97 at 22–25.
The United States Constitution’s Commerce
Clause grants Congress the authority “[t]o regulate
Commerce with foreign Nations, and among the several States, and with the Indian Tribes[.]” U.S.
CONST. art. I, § 8, cl. 3. Because the framers gave the

49a
federal government the exclusive power to regulate interstate commerce, and because federal law preempts
state law, the United States Supreme Court has inferred the existence of a “dormant” Commerce Clause
that limits states’ abilities to restrict interstate commerce. See New Energy Co. v. Limbach, 486 U.S. 269,
273 (1988) (explaining that the Commerce Clause “not
only grants Congress the authority to regulate commerce among the States, but also directly limits the
power of the States to discriminate against interstate
commerce[]”).
At the same time, the Dormant Commerce Clause
“respects federalism by protecting local autonomy.”
Nat’l Ass’n of Optometrists & Opticians v. Harris, 682
F.3d 1144, 1148–49 (9th Cir. 2012). “Thus, the Supreme Court has recognized that ‘under our
constitutional scheme the States retain broad power
to legislate protection for their citizens in matters of
local concern such as public health’ and has held that
‘not every exercise of local power is invalid merely because it affects in some way the flow of commerce
between the States.’” Id. (quoting Great Atl. & Pac.
Tea Co. v. Cottrell, 424 U.S. 366, 371 (1976) (internal
quotations and citations omitted).
There are two ways in which a state regulation
may violate the Dormant Commerce Clause. First, a
state regulation is virtually per se invalid under the
Dormant Commerce Clause if it discriminates against
out-of-state entities. Dep’t of Revenue v. Davis, 553
U.S. 328, 337 (2008); Int’l Franchise Ass’n, Inc. v. City
of Seattle, 803 F.3d 389, 399 (9th Cir. 2015), cert. denied sub nom. Int’l Franchise Ass’n, Inc. v. City of
Seattle, Wash., 136 S. Ct. 1838 (2016). Indeed,
“[m]odern dormant Commerce Clause jurisprudence
primarily ‘is driven by concern about economic

50a
protectionism ‒ that is, regulatory measures designed
to benefit in-state economic interests by burdening
out-of-state competitors.’” Harris, 682 F.3d at 1148
(quoting Davis, 553 U.S. at 337). Accordingly, “[m]ost
regulations that run afoul of the dormant Commerce
Clause do so because of discrimination. . . . ” Harris,
682 F.3d at 1148. Virgin does not argue that the California wage and hour laws at issue here discriminate
against out-of-state entities in this way. See ECF No.
97 at 22–25.
Second, a state regulation that “regulates evenhandedly to effectuate a legitimate local public interest” and whose “effects on interstate commerce are
only incidental” may nonetheless violate the Dormant
Commerce Clause if “the burden imposed on such
commerce is clearly excessive in relation to the putative local benefits.” Sullivan v. Oracle Corp., 662 F.3d
1265, 1271 (9th Cir. 2011) (internal quotation marks
omitted) (quoting Pike v. Bruce Church, Inc., 397 U.S.
137, 142 (1970)). Importantly, “a state regulation does
not become vulnerable to invalidation under the
dormant Commerce Clause merely because it affects
interstate commerce.” Harris, 682 F.3d at 1148. “A
critical requirement for proving a violation of the
dormant Commerce Clause is that there must be a
substantial burden on interstate commerce.” Id. (emphasis in original).
Courts have only struck down non-discriminatory
state regulations “in a small number of dormant Commerce Clause cases,” Harris, 682 F.3d at 1148, and
“[s]tate laws frequently survive this Pike scrutiny,”
Davis, 553 U.S. at 339 (citing cases). Virgin bears the
burden of showing that the application of California’s
Labor Code would violate the Dormant Commerce
Clause. Int’l Franchise Ass’n, Inc. v. City of Seattle,

51a
803 F.3d 389, 400 (9th Cir. 2015), cert. denied sub
nom. Int’l Franchise Ass’n, Inc. v. City of Seattle,
Wash., 136 S. Ct. 1838 (2016) (internal quotation
marks and citations omitted).
Virgin argues that, if it is forced to comply with
the California Labor Code, it will necessarily have to
comply with other states’ wage and hour laws, too.
ECF No. 97 at 22. As a result, it argues, “[a]pplication
of the state regulations at issue would subject Virgin
to an ever changing national patchwork of wage and
hour law, and therefore places an undue burden on interstate commerce” that outweighs California’s
interest in protecting its employees. ECF No. 107 at
14. Virgin further argues that the need for uniform
regulation is especially important in the airline industry, which is inherently national. ECF No. 97 at 23.
Finally, Virgin argues that it will incur substantial
costs if required to comply with the California Labor
Code. ECF No. 120 at 4.
As a preliminary matter, the Court rejects Virgin’s premise that it will necessarily be required to
comply with each state’s wage and hour laws. As explained above, Virgin is subject to California law
because both Virgin and the Plaintiffs have deep ties
to California and the wrongful conduct at issue in this
case occurred in California. Regardless of where their
employees’ pairings take them, the challenged compensation policies at issue in this case emanated from
Virgin’s headquarters in California and Virgin paid its
flight attendants pursuant to those policies in California. Nothing in the record suggests that Virgin has
similar ties to other states, and Virgin has presented
no evidence to support its contention that it will be required to comply with other states’ laws. See S.D.
Myers, Inc. v. City & Cty. of San Francisco, 253 F.3d

52a
461, 471 (9th Cir. 2001) (rejecting a Dormant Commerce Clause challenge where the party challenging
the state regulation “relied solely on conclusory statements about the burden the [state regulation] has on
interstate commerce,” and explaining that the court
“require[s] specific details as to how the costs of the
[state regulation] burdened interstate commerce”).
Absent such evidence, this Court cannot conclude that
Virgin will automatically be forced to comply with the
state laws in whatever jurisdiction their flight attendants happen to pass through on a given day. Rather,
Virgin is simply being required comply with the law of
the state where it chose to headquarter its business,
where its California-resident employees performed
work based out of California airports, and where it
made critical decisions regarding how it would compensate its employees that are now being challenged
in this lawsuit. Virgin’s suggestion that the Court’s
ruling will “have far-reaching implications,” like subjecting an employer to California law because their
employee “simply work[ed] for three hours in the SFO
terminal while waiting for a connecting flight between
New York and Japan,” completely ignores all of the
compelling considerations that weigh in favor of applying California law in this case. ECF No. 97 at 25,
n. 28.
Absent this flawed premise, Virgin’s argument regarding its administrative burden falls apart. Virgin
relies heavily on Ward, but that court’s conclusion
that the application of California’s Labor Code would
impose an undue administrative burden on the airline
was entirely dependent on its erroneous conclusion
that California law only applies to individuals who
work principally or exclusively in California. Based on
that incorrect interpretation of California law, the

53a
Ward court concluded that the airline would have to
“monitor the pilot’s precise hours spent working in
each state and determine which state’s laws applied
in that bid period.” Ward, 2016 WL 3906077 at *5.
Then, the airline would have to “give an individual pilot a different form of wage statement in each bid
period, depending on whether that pilot worked principally in California or some other state.” Id.6 In
contrast, this Court has already determined that principal job situs is not dispositive of whether California
law applies to the Plaintiffs, therefore eliminating any
need to monitor each flight attendant’s work schedule
each month to determine where they principally
worked. As explained above, both the Plaintiffs and
Virgin have significant connections to California, the
California Labor Code clearly applies to the Plaintiffs’
work performed in California, and the wrongful conduct at issue in this case occurred in California.
Because Plaintiffs do not seek to apply the California
Labor Code extraterritorially, the administrative burden that was present in Ward is not present in this
case.
Perhaps most importantly, the Ninth Circuit has
already rejected a similar Dormant Commerce Clause
The Ward court also failed to analyze whether state laws
regarding wage statements actually conflicted such that the airline would need to provide different wage statements for
different states. In doing so, the court neglected to hold the airline to its burden of showing that compliance would impose a
substantial burden. See Int’l Franchise Ass’n, Inc., 803 F.3d 389.
Plaintiffs here have presented a thorough analysis of state-bystate wage statement requirements which suggests that a wage
statement that complies with California law would comply with
almost all state laws, thus mitigating any burden. ECF No. 101–
15.
6

54a
to California’s Labor Code. See Sullivan v. Oracle
Corp., 662 F.3d 1265, 1271 (9th Cir. 2011). Oracle, the
California employer in Sullivan, argued that “[i]f California decides to impose its Labor Code on business
travelers, other states may follow suit” and “[t]he resulting patchwork of conflicting state laws would have
severe adverse impact on interstate commerce, resulting in an administrative burden as employers
attempted to comply with varying state laws.” Brief
for Appellee Oracle Corporation, Sullivan v. Oracle
Corp., 2007 WL 2317029 (C.A.9). The Ninth Circuit
squarely rejected this argument, explaining that “California applies its Labor Code equally to work
performed in California, whether that work is performed by California residents or by out-of-state
residents.” Sullivan, 662 F.3d at 1271. As result, the
Court explained, “[t]here is no plausible Dormant
Commerce Clause argument when California has chosen to treat out-of-state residents equally with its
own.” Id. Sullivan therefore confirms that California’s
Labor Code “regulates even-handedly to effectuate a
legitimate local public interest” such that it will be upheld unless Virgin shows that the burden it imposes
on interstate commerce “is clearly excessive in relation to the putative local benefits.’” Id.
The only potential difference between this case
and Sullivan is that this case involves the airline industry. It is true that a state regulation “that imposes
significant burdens on interstate transportation” represents the kind of “inconsistent regulation of
activities that are inherently national or require a
uniform system of regulation.” Harris, 682 F.3d at
1148. The question then becomes what uniform system of regulation Virgin is currently subject to and

55a
whether the application of the California Labor Code
is inconsistent with that system.
Virgin suggests that the Fair Labor Standards Act
(FLSA) already provides a uniform, albeit “baseline,”
system of regulation for employment in the airline industry. See ECF No. 107 at 15–16. But Virgin
completely fails to explain how the application of California’s Labor Code would conflict with FLSA and
thereby disrupt the uniform system of regulation.7
The only potential conflict that Virgin identifies between the FLSA and California law is that the FLSA
allows averaging to satisfy minimum wage requirements, whereas California law does not. ECF No. 97
at 24–25. However, the FLSA specifically contemplates continued state regulation of employees’
working conditions. See 29 U.S.C.A. § 218(a) (“No provision of this chapter or of any order thereunder shall
excuse noncompliance with any … State law or municipal ordinance establishing a minimum wage higher
than the minimum wage established under this chapter or a maximum work week lower than the
maximum workweek established under this chapter …”). Through FLSA’s savings clause, Congress
“made clear its intent not to disturb the traditional exercise of the states’ police powers with respect to
wages and hours more generous than the federal
standards.” Pac. Merch. Shipping Ass’n v. Aubry, 918
F.2d 1409, 1421 (9th Cir. 1990) (explaining that California’s overtime provisions supplemented FLSA’s
Again, the primary disruption to national uniformity that
Virgin identifies is the supposed conflict between California law
and the laws of other states, such as New York and Florida. See
ECF No. 97 at 24. For the reasons provided above, the Court rejects Virgin’s assumption that it will be subject to every state’s
wage and hour laws simply because it is subject to California law.
7

56a
protections and holding that California’s overtime
laws applied to maritime workers working on the high
seas). In other words, “the purpose behind the FLSA
is to establish a national floor under which wage protections cannot drop, not to establish absolute
uniformity in minimum wage and overtime standards
nationwide at levels established in the FLSA.” Id. at
1425 (emphasis in original). Because the FLSA and
the California Labor Code were intended to coexist,
the application of California law is not inconsistent
with the national system of regulation under FLSA.8
The lack of a conflict between the FLSA and the
California Labor Code distinguish this case from the
small number of cases in which the Supreme Court
has held that a state regulation is unconstitutional because it imposes an undue burden on interstate
transportation. Virgin argues that California’s prohibition against averaging to satisfy minimum wage
requirements is akin to the state regulation at issue
in Bibb v. Navajo Freight Lines, Inc., 359 U.S. 520
(1959). ECF No. 107 at 14–15. In Bibb, the Supreme
Court held that an Illinois statute that required
trucks to use curved mudguards placed an unconstitutional burden on interstate commerce because it
Contrary to Plaintiffs’ assertion, FLSA’s savings clause
does not constitute a delegation of Congressional authority to the
states to regulate an area of interstate commerce. See ECF No.
102 at 26. As the Ninth Circuit explained in Pacific Merchant,
“Congress did not ‘delegate’ authority to the states through section 218, but simply made clear its intent not to disturb the
traditional exercise of the states’ police powers with respect to
wages and hours more generous than the federal standards.” Pacific Merchant, 918 F.2d at 1421. Therefore, California’s wage
and hour laws are not completely “invulnerable” to a Dormant
Commerce Clause challenge. Cf. W. & S. Life Ins. Co. v. State Bd.
of Equalization of California, 451 U.S. 648, 652–55 (1981).
8

57a
directly conflicted with an Arkansas statute that required truck drivers to use straight mudguards. Bibb,
359 U.S. at 527. The conflict between the two statutes
required truck drivers to change their mudguards
when crossing state lines, a process that caused significant delay and posed safety risks because the
mudguards were welded on. See id. The Supreme
Court similarly struck down an Arizona law that restricted the number of cars on trains that traveled
interstate because it required railroads to break up
and remake long trains upon entering and leaving the
Arizona. S. Pac. Co. v. State of Ariz. ex rel. Sullivan,
325 U.S. 761 (1945). Unlike the state regulations at
issue in Bibb and Southern Pacific, California’s Labor
Code does not conflict with the FLSA. Rather, as explained by the Ninth Circuit in Pacific Merchant
Shipping, California law supplements the FLSA’s
baseline wage and hour requirements. And requiring
Virgin to pay its California employees in accordance
with California law simply does not impede the flow
of interstate transportation like the regulations at issue in Bibb and Pacific Merchant. As the Plaintiffs
persuasively argue, “Virgin’s aircrafts take off and
land on schedule regardless of its pay policies.” ECF
No. 102 at 28.
Virgin also relies on United Air Lines, Inc. v. Indus. Welfare Com., a 1963 California Court of Appeals
decision that was later overruled on other grounds.
United Air Lines, Inc. v. Indus. Welfare Comm’n, 211
Cal. App. 2d 729, 747 (Ct. App. 1963) disapproved of
by Indus. Welfare Com. v. Superior Court, 27 Cal. 3d
690, 728, n.15 (1980). In that case, the court held that
a California wage regulation that required the defendant airline to pay for their flight attendant’s uniforms
would pose an undue burden on interstate commerce.

58a
See id. at 747–49. The only burden that the court
could identify was the “personnel troubles” that would
result if some flight attendants had to pay for their
uniforms and others did not. Id. Tellingly, the court
admitted that “that burden may not be very great.” Id.
Nonetheless, the court held that the regulation violated the Dormant Commerce Clause because “the
subject is one which necessarily requires uniformity of
treatment.” Id. The Court does not find this case persuasive because (1) controlling United States
Supreme Court and Ninth Circuit precedent require a
“substantial burden,” and (2) the application of the
California Labor Code would not disrupt national uniformity in this case because Congress intended for
state law to supplement the FLSA. See Harris, 682
F.3d at 1148 (citing S.-Cent. Timber Dev., Inc. v. Wunnicke, 467 U.S. 82, 87 (1984)).9
Finally, Virgin argues that it will incur additional
staffing costs if required to comply with California’s
meal break requirements. ECF No. 120 at 4˗5. But the
“administrative costs of compliance, alone, are generally insufficient to be deemed an unconstitutional
burden.” Barclays Bank Internat. Ltd. v. Franchise
Tax Bd., 10 Cal.App.4th 1742, 1755 (1992) (citing
Bibb, 359 U.S. at 526), aff’d sub nom. Barclays Bank
PLC v. Franchise Tax Bd. of California, 512 U.S. 298,
310 (1994); see also, e.g., Burlington Northern R. Co.
v. Department of Public Service Regulation, 763 F.2d
1106, 1114 (9th Cir. 1985) (rejecting a Dormant Commerce Clause challenge to a Montana statute that
Virgin also relies on an unpublished, uncitable decision.
See ECF No. 97 at 23 (relying on Guy v. IASCO, 2004 WL
1354300 (Cal. App. 2d June 17, 2004). This Court does not address that decision.
9

59a
required a railroad to maintain and staff freight offices in towns with at least 1,000 persons, noting that
“a loss to the company does not, without more, suggest
that the Montana statute ‘impede[s] substantially the
free flow of commerce from state to state’”) (quoting
Southern Pacific, 325 U.S. at 767). Virgin argues that
its compliance costs—an estimated $1,950,925 annually10—are significantly greater than those at issue in
Barclays and Burlington. ECF No. 120 at 5. But the
Ninth Circuit also rejected a Dormant Commerce
Clause challenge to California’s vessel fuel rules, even
though compliance with those rules would cost the industry an additional $360 million annually. Pacific
Merchant Shipping Ass’n v. Goldstene, 639 F.3d 1154,
1159, 1177˗82 (9th Cir. 2011). In doing so, the Court
noted that the cost of compliance “would appear to be
relatively small in comparison with the overall cost of
a trans-Pacific voyage.” Id. Virgin’s compliance
costs—$100 per flight according to Virgin’s estimate—
are also relatively small compared to the overall cost
of a flight.
In sum, Virgin has failed to show that the burden
on interstate commerce imposed by the California Labor Code is “clearly excessive in relation to the
putative local benefits.” Pike, 397 U.S. at 142. Virgin
relies heavily on the professed conflict between California law and other states’ laws to argue that there
is an administrative burden, but this argument hinges
on its faulty assumption that it will be subject to the
wage and hour laws of other states’ simply because it
is subject to California law. Virgin also relies on the
This estimate reflects the cost of paying an additional
flight attendant the lowest base rate ($20/hour) for every flight
that lasts five hours. ECF No. 120 at 4˗5.
10

60a
fact that it operates within the national airline industry, but there is no conflict between the existing
system of federal regulation (the FLSA) and the California Labor Code because Congress intended state
regulations to supplement the FLSA’s minimum requirements. Contrasted against the speculative
burden of having to comply with various states’ employment laws are the significant local benefits
conferred by the wage and hour provisions at issue in
this lawsuit, which ensure that workers are paid for
all hours worked. Because these local benefits outweigh any potential burden on interstate commerce,
there is no Dormant Commerce Clause violation.
C. Federal Preemption of Plaintiffs’ Meal
and Rest Break Claims
Third, Virgin argues that Plaintiffs’ meal and rest
break claims are preempted by the Federal Aviation
Act (“FAA”) and/or the Airline Deregulation Act
(“ADA”). ECF No. 97 at 26– 29.
“Preemption analysis begins with the ‘presumption that Congress does not intend to supplant state
law.’” Tillison v. Gregoire, 424 F.3d 1093, 1098 (9th
Cir. 2005) (quoting N.Y. State Conference of Blue
Cross & Blue Shield Plans v. Travelers Ins. Co., 514
U.S. 645, 654 (1995)). In particular, the Supreme
Court has warned that “[p]re-emption of employment
standards ‘within the traditional police power of the
State’ ‘should not be lightly inferred.’” Hawaiian Airlines, Inc. v. Norris, 512 U.S. 246, 252 (1994) (quoting
Fort Halifax Packing Co. v. Coyne, 482 U.S. 1, 21
(1987)).
However, this presumption is overcome where
Congress expresses a “clear and manifest” intent to
preempt state law. Californians For Safe &

61a
Competitive Dump Truck Transp. v. Mendonca, 152
F.3d 1184, 1186 (9th Cir. 1998). “Congress’ intent may
be ‘explicitly stated in the statute’s language or implicitly contained in its structure and purpose.’”
Montalvo v. Spirit Airlines, 508 F.3d 464, 470 (9th Cir.
2007) (internal quotation marks omitted). “There are
two types of implied preemption: conflict preemption
and field preemption.” Id. “Courts may find conflict
preemption when a state law actually conflicts with
federal law or when a state law stands as an obstacle
to the accomplishment and execution of the full purposes and objectives of Congress in enacting the
federal law.” Id. “Implied preemption exists when federal law so thoroughly occupies a legislative field ‘as
to make reasonable the inference that Congress left no
room for the States to supplement it.’” Id. (quoting
Cipollone v. Liggett Group, Inc., 505 U.S. 504, 516
(1992)). “Thus, field preemption occurs when Congress
indicates in some manner an intent to occupy a given
field to the exclusion of state law.” Id.
3. FAA Preemption
With respect to the FAA, Virgin argues that both
types of implied preemption are present. ECF No. 97
at 26–28. First, Virgin argues that “[t]he FAA occupies
the field with respect to setting rest and duty periods
for [flight attendants], and California’s meal period
and rest break laws are therefore preempted.” Id. Second, Virgin argues that California law conflicts with
the FAA’s requirements regarding meal and rest
breaks. ECF No. 97 at 28.
a. Field Preemption
“The first step” in the field preemption inquiry “is
to delineate the pertinent regulatory field.” Nat’l
Fed’n of the Blind v. United Airlines Inc., 813 F.3d

62a
718, 734 (9th Cir. 2016). Virgin argues that flight attendant break requirements occupy the field of
“aviation safety,” whereas Plaintiffs define the pertinent field as “the field of airline employment.” ECF
No. 97 at 26–28; ECF No. 102 at 30. The Ninth Circuit
has emphasized the need to define the relevant field
“with specificity.” Nat’l Fed’n of the Blind, 813 F.3d at
734. For example, where plaintiffs challenged the airline’s policy of using automatic kiosks that were
inaccessible to blind travelers, “the pertinent field for
purposes of field preemption analysis [was] not ‘air
carrier accessibility’ in general,” but rather “airport
kiosk accessibility for the blind.” Id. at 737. And, in a
personal injury suit challenging the safety of airstairs,
the relevant field was not “plane design” generally,
but rather the regulation of airstairs in particular.
Martin ex rel. Heckman v. Midwest Exp. Holdings,
Inc., 555 F.3d 806, 811–12 (9th Cir. 2009). Although
the Ninth Circuit has previously held that Congress
intended to occupy “the field of aviation safety,” Montalvo, 508 F.3d at 470, it has subsequently cautioned
that “Montalvo should not be read . . . expansively
with regard to the relevant field for preemption purposes.” Nat’l Fed’n of the Blind, 813 F.3d at 734, n. 13
(internal quotation marks omitted) (quoting Gilstrap
v. United Air Lines, Inc., 709 F.3d 995, 1004 (9th Cir.
2013)). The Court therefore defines the relevant field
for preemption purposes as the regulation of meal and
rest breaks for flight attendants.
With this definition in mind, the Court now turns
to the second step of the field preemption analysis: “to
survey the scope of the federal regulation within that
field” and determine “whether the density and detail
of federal regulation merits the inference that any
state regulation within the same field will necessarily

63a
interfere with the federal regulatory scheme.” Nat’l
Fed’n of the Blind, 813 F.3d at 734. Virgin points to
four FAA regulations that it argues affect the provision of meal and rest breaks to flight attendants in
some way.11 ECF No. 107 at 7. Of these, the Court can
identify only one that actually regulates the provision
of breaks to flight attendants.12 See 14 C.F.R.
§ 121.467(b) (prohibiting flight attendants from working duty periods of longer than fourteen hours and
requiring a nine-hour rest period between duty periods). This lone regulation can hardly be described as
comprehensive, detailed, or pervasive enough to justify federal preemption of the field. See Martin ex rel.
Heckman v. Midwest Exp. Holdings, Inc., 555 F.3d
806, 812 (9th Cir. 2009) (finding that a single FAA regulation regarding airstairs was not enough to preempt
state law claims that the stairs are defective). Therefore, the FAA does not preempt the provision of meal
and rest breaks to flight attendants.

Virgin also relies heavily on the FAA’s statements about
its flight attendant break regulation to argue that break requirements affect airline “safety,” at least to some degree, and are
therefore preempted. ECF No. 97 at 27 (citing 59 FR 42974-01).
In doing so, Virgin adopts the overly broad reading of Montalvo
that the Ninth Circuit has repeatedly counseled against. Nat’l
Fed’n of the Blind, 813 F.3d at 734, n. 13 (internal quotation
marks omitted) (quoting Gilstrap, 709 F.3d at 1004). The Court
therefore rejects this argument.
11

The other FAA regulations outline the requisite number
of flight attendants and the requirements regarding where flight
attendants should be located during takeoff, landing, taxi, and
stops where passengers remain on board. See 14 CFR §§ 121.391,
121.393, 121.394.
12

64a
b. Conflict Preemption
“Conflict preemption applies ‘where compliance
with both federal and state regulations is a physical
impossibility,’ and in ‘those instances where the challenged state law stands as an obstacle to the
accomplishment and execution of the full purposes
and objectives of Congress.” Ventress v. Japan Airlines, 747 F.3d 716, 720–21 (9th Cir.), cert. denied, 135
S. Ct. 164 (2014) (internal citations and quotation
marks omitted).
Virgin argues that there are two potential conflicts between FAA regulations and California’s meal
and rest break requirements. First, it argues that California law, which requires that employees are
relieved of all duty during a thirty-minute meal break
every five hours, conflicts with FAA regulations that
“do not permit Plaintiffs to forego their responsibilities while in flight.” ECF No. 97 at 27–28. Second,
Virgin argues that “the FAA permits [flight attendants] to remain on duty for up to 14 hours straight
before receiving a rest period,” whereas California law
requires a ten-minute rest-period every four hours
and an additional thirty-minute meal period every
five hours. ECF No. 107 at 7.
It is not “a physical impossibility” for Virgin to
simultaneously comply with California law and FAA
regulations. For example, Virgin could staff longer
flights with additional flight attendants in order to allow for duty-free breaks. In addition, the FAA
regulation that Virgin relies on is wholly consistent
with California’s break requirements because it
merely establishes the maximum duty period time
and minimum rest requirements. See 14 C.F.R.
§ 121.467. Therefore, there is no conflict preemption.

65a
4. ADA Preemption
Next, Virgin argues that the application of California’s Labor Code is preempted by the Airline
Deregulation Act (“ADA”). ECF No. 97 at 28–29.
To support its argument, Virgin relies on the following express preemption provision in the ADA: “[A]
State . . . may not enact or enforce a law, regulation,
or other provision having the force and effect of law
related to a price, route, or service of an air carrier
that may provide air transportation under this subpart.” 49 U.S.C. § 41713(b)(1). Based on this provision,
Virgin argues that providing its flight attendants with
breaks as required under California law could “prevent the aircraft from being prepared for takeoff or
passengers being boarded on time,” thereby having
the effect of “regulating Virgin’s services and routes.”
ECF No. 97 at 28–29. Virgin cites to several district
court cases that support its argument that meal and
rest break claims impact an airline’s services and
routes and are therefore preempted by the ADA. See
id.
However, all of the cases that Virgin relies on predate the Ninth Circuit’s decision in Dilts v. Penske
Logistics, LLC, in which it squarely rejected the
preemption argument that Virgin makes here. 769
F.3d 637 (9th Cir. 2014), cert. denied, 135 S. Ct. 2049
(2015). In that case, the Ninth Circuit decided to
“draw a line between laws that are significantly ‘related to’ rates, routes, or services, even indirectly, and
thus are preempted, and those that have ‘only a tenuous, remote, or peripheral’ connection to rates, routes,
or services, and thus are not preempted.” Id. at 643
(emphasis added) (quoting Rowe v. N.H. Motor
Transp. Ass’n, 552 U.S. 364, 371 (2008)). The Court

66a
explained that this limiting principle was necessary
because the phrase “related to” was so broad that it
could conceivably be interpreted to encompass every
state law, even those that Congress did not intend to
preempt. Id. (“[E]verything is related to everything
else.”) (quoting Dillingham Constr., 519 U.S. at 335
(Scalia, J., concurring)). With this guiding principle in
mind, the court held that “California’s meal and rest
break laws plainly are not the sorts of laws ‘related to’
prices, routes, or services that Congress intended to
preempt,” adding that it was not even a “close case[].”
Id. at 647. The court went on to specifically reject the
argument that Virgin makes here—i.e., that providing
duty-free breaks to its employees would affect service
and routes—explaining that the defendants “simply
must hire a sufficient number of drivers and stagger
their breaks for any long period in which continuous
service is necessary.” Id. at 648.
Virgin tries to distinguish Dilts by arguing that it
“dealt with neither ADA preemption nor the airline
industry,” but neither of those considerations changes
this Court’s analysis. ECF No. 97 at 29, n. 30; ECF No.
107 at 8, n. 7. Although Dilts involved preemption under
the
Federal
Aviation
Administration
Authorization Act (“FAAAA”), and not the ADA, “the
FAAAA was modeled on the Airline Deregulation Act
of 1978” and “us[es] text nearly identical to the Airline
Deregulation Act’s,” including the exact preemption
language at issue in this case. Dilts, 769 F.3d at 643–
44; see also 49 U.S.C. § 14501(c) (“[A] State . . . may
not enact or enforce a law, regulation, or other provision having the force and effect of law related to a
price, route, or service of any motor carrier . . . “).
Therefore, the Dilts court relied extensively on cases
that involved ADA preemption, noting that those

67a
cases were “instructive for [the court’s] FAAAA analysis as well.” Dilts, 769 F.3d at 644. Virgin offers no
persuasive argument as to why identical language in
a statute with an identical purpose should be interpreted differently merely because it applies to a
different industry.
Plaintiffs’ meal and rest break claims are not
preempted by the ADA.
D. Compliance With California Law
Next, Virgin argues that its compensation policy
and wage statements comply with California law.
ECF No. 97 at 31-34.
1. Compensation Policy
The relevant Wage Order requires that employers
in the transportation industry pay minimum wages
“for all hours worked.” Cal. Code Regs. tit. 8, § 11090,
Wage Order 9-2001 ¶ 4(A). “Hours worked” means
“the time during which an employee is subject to the
control of an employer, and includes all the time the
employee is suffered or permitted to work, whether or
not required to do so.” Id., § 2(G). California courts
have held that “[t]his language expresses the intent to
ensure that employees be compensated at the minimum wage for each hour worked” and, therefore,
employers may not average the total amount earned
by an employee over all hours worked in order to comply with minimum wage laws. Armenta v. Osmose,
Inc., 135 Cal. App. 4th 314, 323 (2005); Vaquero v.
Ashley Furniture Indus., Inc., 824 F.3d 1150, 1154
(9th Cir. 2016).13
13 Despite this clear prohibition against averaging to meet
minimum wage requirements, Virgin argues that “there is no
(cont’d)

68a
The wage order does not require, however, that
employers necessarily compensate their employees
through an hourly wage. Instead, it gives employers
some flexibility in this regard, allowing them to calculate compensation “by time, piece, commission, or
otherwise.” Cal. Code Regs. tit. 8, § 11090, Wage Order 9-2001 ¶ 4(B); see also id, § 2(O) (“‘Wages’ includes
all amounts for labor performed by employees of every
description, whether the amount is fixed or ascertained by the standard of time, task, piece,
commission basis, or other method of calculation.”).
Therefore, the fact that Virgin does not pay its flight
attendants on a straight hourly basis for all activities,
but rather through a “credit-based system” that pays
a fixed rate for certain activities, does not violate California law in and of itself.
However, Virgin must still compensate its employees for all time worked in some way, irrespective
of how it calculates that compensation (e.g. based on
hours worked, the particular task performed, or some
other factor). See, e.g., Cardenas v. McLane FoodServices, Inc., 796 F. Supp. 2d 1246, 1249-53 (C.D. Cal.
2011) (holding that the employer’s piece-rate pay formula for its truck drivers—which was based on miles
driven, stops made, and products delivered—violated
California’s minimum wage law because the compensation formula “did not separately compensate
employees for pre- and post-shift time not calculated
for in the piece-rate plan”). If an employer’s
evidence that when applying the number of credits received for
each Duty Period against their hours worked for the Duty Period
that Plaintiffs received below the minimum wage.” ECF No. 97
at 33. As explained above, that is not the relevant question under
California law; the relevant question is whether the Plaintiffs
were paid the minimum wage for each hour worked.

69a
compensation system fails to account for all work duties in this way, it violates California’s minimum wage
law and the employer cannot make up the difference
by relying on impermissible averaging. See id.
a. Compensation
Duty Time

for

Non-Block

The Plaintiffs claim that Virgin has no identifiable means of paying for duty hours outside of block
time—i.e., time spent before takeoff and after arrival.
ECF No. 102 at 21-22. Plaintiffs argue that they are
subject to Virgin’s control and perform work during
this non-block duty time, including participating in
pre-flight briefings and boarding passengers, so they
must be paid for that time.
Virgin responds that it compensates flight attendants for non-block duty time, relying largely on the
following provision in its Work Rules: “[t]he credit
value for each duty period within a pairing will consist
of block hours, deadhead or ground transportation
credit, and minimum duty credit . . .” ECF No. 97 at
31 (emphasis in original); see also ECF No. 45-4 at 12.
Virgin appears to be arguing that, because its Work
Rules say that flight attendants will be compensated
“for each duty period,” Virgin actually did compensate
flight attendants for the entire duty period, including
non-block time. But, as the court explained in Cardenas, “it is irrelevant whether the pay formula was
intended to compensate pre- and post-trip duties, or
even if employees believed it covered those duties, if
its formula did not actually directly compensate those
pre- and post-trip duties.” Cardenas, 796 F. Supp. 2d
at 1253 (emphasis in original). The Court must therefore look to Virgin’s compensation formula to

70a
determine whether it “separately compensate[s]” for
non-block duty hours. Id.
It does not. The formula, as articulated in Virgin’s
work rules, always compensates flight attendants for
block time and time spent deadheading. See ECF No.
45-4 at 12-13. However, it does not separately compensate non-block, non-deadheading duty time, which
includes time when flight attendants are performing
work (e.g. boarding and deplaning passengers) and
subject to Virgin’s control. One could argue that the
“minimum duty period credit” presumably compensates for all time spent on duty, including non-block
duty hours, but even that compensation is not guaranteed. See id. Rather, a flight attendant is only
entitled to the “minimum duty period credit” for a
given day if he or she has not already earned 3.5 hours
of block time or deadheading credit for the day. Id. In
addition, the Crew Pay Manual explicitly states that
“crewmembers are not paid for time ‘on the clock’
(duty time); instead, they are typically paid only when
the aircraft is moving (block time).” ECF No. 100-9 at
8. This further suggests that non-block duty time goes
uncompensated. Ridgeway v. Wal-Mart Stores, Inc.,
107 F. Supp. 3d 1044, 1052 (N.D. Cal. 2015), motion
to certify appeal denied, No. 08-CV-05221-SI, 2015
WL 4463923 (N.D. Cal. July 21, 2015) (granting summary judgment on plaintiff’s minimum wage claim
because “certain required tasks are specifically designated as unpaid activities” under the employer’s
piece-rate compensation system). Because Virgin’s
formula does not separately compensate flight attendants for duty time that is not block time or
deadheading time, the Court denies Virgin’s motion
for summary judgment that its compensation system
for flight activities complies with California law.

71a
The cases from this district that Virgin relies on
are distinguishable. ECF No. 97 at 31-32. For example, the compensation formula at issue in Oman
included a guaranteed “duty period credit” of one hour
of pay for every two hours of duty, in addition to a
“minimum duty credit” of approximately five hours.
See Oman v. Delta Air Lines, Inc., 153 F. Supp. 3d
1094, 1098-99 (N.D. Cal. 2015). This duty period
credit appeared to factor prominently in the Oman
court’s conclusion that “Delta’s Work Rules ensure
that Flight Attendants are paid for all hours worked.”
Id. at 1105-06. For instance, the court began its analysis by citing to another case in which a court relied
on Delta’s duty period credit to conclude that “Flight
Attendants will be paid, at a minimum, at the rate of
one half of their flight pay for each hour that they
spend working on duty for defendant.” Id. at 1102-03
(quoting DeSaint v. Delta Air lines, Inc., No. CIV.A.
13–11856– GAO, 2015 WL 1888242 (D.Mass. Apr. 15,
2015)). The Booher court similarly dealt with compensation formulas that included a guaranteed duty
period credit and concluded that “Plaintiffs are paid
for all hours worked, based on the minimum guarantee in the Bid Packet and considering all hours
actually worked.” Booher v. JetBlue Airways Corp.,
No. C 15-01203 JSW, 2016 WL 1642929, at *3 (N.D.
Cal. Apr. 26, 2016).
Unlike the compensation formulas at issue in the
cases above, which ensured that flight attendants
were, “at a minimum,” compensated for all hours on
duty, Virgin’s formula does not provide such a guarantee. As explained above, Virgin’s flight attendants
only receive credit for duty hours if they have not already earned 3.5 credits of block time or deadheading

72a
time for the day. Virgin therefore fails to compensate
its flight attendants for all hours worked.
b.

Compensation for Non-Flight
Activities

The Plaintiffs also claim that Virgin fails to pay
for all hours worked doing certain non-flight activities, such as time spent undergoing mandatory drug
testing, attending mandatory training, deadheading,
completing incident reports, and being on reserve
duty. ECF No. 32 ¶ 46.
With the single exception of time spent completing
incident reports, Virgin’s compensation formula accounts for all of the above non-flight work duties when
calculating compensation. ECF No. 45-4 at 12-13. Specifically, it assigns thirty minutes of credit for drug
testing, a flat monthly rate for initial flight attendant
training, 3.5 hours of credit for annual training, and
four hours of credit for airport reserve shifts in which
flight attendants are not assigned to a flight. ECF No.
47-5 at 7, 9; ECF No. 45-4 at 16, 24. Because Virgin’s
formula directly compensates Plaintiffs for these nonflight work duties, albeit via a credit-based system instead of an hourly rate, Plaintiffs cannot succeed on
their claims related to non-payment for these tasks.
Oman, 153 F. Supp. 1098-99 (upholding a credit-based
system that allotted one hour of pay for every two
hours of duty). The Court therefore grants Virgin’s
motion for summary judgment as to claims based on
those activities.
However, Virgin’s compensation formula completely fails to account for time spent completing
incident reports, and the Plaintiffs have presented evidence that they were unable to complete these
mandatory incident reports during block time. ECF

73a
No. 101-29 at 10. The Court therefore denies Virgin’s
motion for summary judgment as to claims based on
the completion of incident reports.
2. Wage Statements
Under § 226 of the California Labor Code, an employer is required to provide “an accurate itemized
wage statement” showing gross wages, total hours
worked, net wages earned, and all applicable hourly
rates in effect during the pay period and the corresponding number of hours worked at each hourly rate,
among other things. Cal. Lab. Code § 226(a). “The employer’s violation of section 226 must be ‘knowing and
intentional.’” Garnett v. ADT LLC, 139 F. Supp. 3d
1121, 1133 (E.D. Cal. 2015), reconsideration denied,
No. 2:14-02851 WBS AC, 2016 WL 146232 (E.D. Cal.
Jan. 13, 2016) (quoting Cal. Labor Code § 226(e)(1)).
Virgin concedes that its wage statements do not
show the effective hourly rate of pay for each hour on
duty, but it claims that its compensation system prevents full compliance and that it nonetheless is
“complying with Section 226 in good faith.” ECF No.
97 at 34. Virgin also admits that, pursuant to its payment policies, its month end wage statement does not
show the actual number of hours worked during that
pay period, but rather just shows 37.5 hours at the
flight attendant’s base rate by default. ECF No. 10130 at 10.
Good faith is not a defense to a wage statement
violation under § 226. Garnett, 139 F. Supp. 3d at
1133-34. Moreover, the fact that Virgin’s wage statement deficiencies are part of a centralized policy that
fails to comply with § 226 suggests that the violation
is knowing and intentional. Id.

74a
The Court therefore denies Virgin’s motion for
summary judgment on the Plaintiffs’ wage statement
claims.
E. Plaintiffs’
Eligibility

Overtime

and

Break

Next, Virgin argues that, because the California
Labor Code does not apply extraterritorially, the
Plaintiffs must show that they worked the requisite
number of hours within California to trigger overtime
and break requirements. ECF No. 97 at 29. Virgin argues that the Plaintiffs cannot do so because time
spent flying in the airspace above California is not
time spent within California. Id.
The Court rejects Virgin’s argument that California wage and hour law cannot apply to flight
attendants while they are in the air. To support its argument, Virgin cites to a provision of the FAA
(§ 40103), but the Court has already rejected Virgin’s
argument for FAA preemption. Although the federal
government has exclusive sovereignty over the United
States airspace and aviation safety, “Congress has not
occupied the field of employment law in the aviation
context and . . . the FAA does not confer upon the
agency the exclusive power to regulate all employment matters involving airmen.” Ventress v. Japan
Airlines, 747 F.3d 716, 722 (9th Cir.), cert. denied, 135
S. Ct. 164 (2014). And the federal employment law
proposed by Virgin, the FLSA, explicitly contemplates
that state wage and hour laws like California’s will
apply concurrently with federal law. 29 U.S.C. § 218.
The only conflicting authority that Virgin presents is
a single footnote in a single, non-controlling district
court case from the Northern District of Illinois. See
Hirst v. Skywest, Inc., No. 15 C 02036, 2016 WL

75a
2986978, at *10, n. 14 (N.D. Ill. May 24, 2016). The
Court does not find the case persuasive.
There is evidence that the Plaintiffs worked more
than eight hours some days such that they qualify for
overtime pay. As explained above, the Plaintiffs’ overtime claims do not seek to apply California law
extraterritorially. Because the alleged wrongful conduct—i.e. Virgin’s decisions about how to compensate
its flight attendants and its payment of flight attendants in accordance with those decisions—occurred in
California, Virgin may be held accountable for that
wrongful conduct under California law regardless of
where the Plaintiffs worked their shifts. In any event,
there is also evidence that Plaintiffs worked shifts
longer than eight hours within California such that
they qualify for overtime pay. For example, Virgin’s
own expert testified that each of the Plaintiffs had at
least one day where they worked in excess of eight
hours within California. ECF No. 101-31 at 3:9-24.
This evidence is sufficient to create a triable issue of
fact regarding whether the Plaintiffs were eligible for
overtime pay.
Although Plaintiffs’ break claims are geographically limited, there is sufficient evidence that the
Plaintiffs worked duty periods solely within California
- for example, on flights between California airports that were long enough to trigger meal period and rest
break eligibility. ECF No. 101-17 (showing Plaintiffs’
scheduled flights between California airports). Virgin’s expert found that, when time spent on California
tarmacs was considered, “the data reflects few instances when Plaintiffs potentially worked enough
hours in California to be eligible for meal periods
(days longer than 5 hours) or rest breaks (days longer
than or equal to 3.5 hours).” ECF No. 98-2 at 6.

76a
Specifically, Virgin’s expert found fifty instances in
which Plaintiff Smith was potentially eligible for a
rest break, four instances in which Plaintiff Bernstein
was potentially eligible for a rest break, and fiftythree instances in which Plaintiff Garcia was potentially eligible for a rest break. Id. He also found thirtyone instances in which Plaintiff Smith was potentially
eligible for a meal period, four instances in which
Plaintiff Bernstein was potentially eligible for a meal
period, and twenty-six instances in which Plaintiff
Garcia was eligible for a meal period. Id. This evidence
is sufficient to create a triable issue of fact regarding
whether Plaintiffs were eligible for breaks when working in California.
The Court accordingly denies Virgin’s motion for
summary judgment on the overtime and break claims.
F. Covered Employees Under the San
Francisco Minimum Wage Ordinance
Next, Virgin argues that the Plaintiffs are not covered employees under the San Francisco Minimum
Wage Ordinance (“SFMWO”). ECF No. 97 at 33. The
SFMWO states that “Employers shall pay Employees
no less than the Minimum Wage for each hour worked
within the geographic boundaries of the City.” S.F.
Admin. Code § 12R.4. “City” is defined to include “the
City and County of San Francisco,” and an “Employee”
is any person who “[i]n a particular week performs at
least two (2) hours of work for an Employer within the
geographic boundaries of the City.” Id., § 12R.3. Although San Francisco International Airport (SFO) is
owned by the City and County of San Francisco, it is
located outside the city limits of San Francisco and in
San Mateo County. Virgin’s training facility is also located outside the City and County of San Francisco.

77a
Plaintiffs fail to address this argument in their opposition. Because the Plaintiffs have failed to show that
they are covered under the SFMWO, the Court grants
summary to Virgin on those claims.
G. Business Expenses
The Plaintiffs claim that Virgin required Plaintiffs Garcia and Smith to maintain a valid passport,
but that Virgin did not indemnify Plaintiffs for the
costs incurred in purchasing and/or renewing passports. ECF No. 32 ¶ 101. However, Virgin argues that
the Plaintiffs have not produced any evidence that
they incurred business expenses related to their passports and, as a result, they cannot prevail on their
claim for failure to indemnify for necessary expenditures. ECF No. 97 at 34-35.
Plaintiff Garcia testified that she obtained her
passport before she began working for Virgin and did
not renew her passport while she was working for Virgin. ECF No. 61-2 at 7:10¬15. Plaintiff Smith
similarly testified that she had a passport before she
started working for Virgin and her passport does not
expire until 2020. ECF No. 61-3 at 23. Plaintiffs fail to
point to any countervailing evidence in their opposition.
The Court therefore grants Virgin’s motion for
summary judgment as to the Plaintiffs’ claim for business expenses under California Labor Code § 2802.
H. Remaining Claims
Because the Court has not dismissed all of the
Plaintiffs’ underlying claims for unpaid wages, it denies Virgin’s motion for summary judgment on the
derivative waiting time penalty, unfair competition,
and Private Attorney General Act (“PAGA”) claims.

78a
CONCLUSION
For the reasons above, the Court denies in part
and grants in part Virgin’s motion for summary judgment.
IT IS SO ORDERED.
Dated: January 5, 2017

79a
APPENDIX C
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
____________
No.15-cv-02277-JST
____________
JULIA BERNSTEIN, et al.,
Plaintiffs
v.
VIRGIN AMERICA, INC.,
Defendant
____________

ORDER DENYING MOTION FOR LEAVE TO
FILE A MOTION FOR RECONSIDERATION
Before the Court is Defendant Virgin America,
Inc.’s motion for leave to file a motion for reconsideration or, in the alternative, an order certifying the
summary judgment order for interlocutory appeal.
ECF No. 127. The Court will deny the motion.
I.

MOTION FOR LEAVE TO FILE A MOTION
FOR RECONSIDERATION

Under Civil Local Rule 7–9(a), “any party may
make a motion before a Judge requesting that the
Judge grant the party leave to file a motion for reconsideration of any interlocutory order on any ground
set forth in Civil LR. 7–9 (b).” The party seeking reconsideration must show that at least one of the
following grounds for reconsideration is present:

80a
(1) That at the time of the motion for leave, a material difference in fact or law exists from that
which was presented to the Court before entry of
the interlocutory order for which reconsideration
is sought . . . ; or
(2) The emergence of new material facts or a
change of law occurring after the time of such order; or
(3) A manifest failure by the Court to consider material facts or dispositive legal arguments which
were presented to the Court before such interlocutory order.
Civ. L.R. 7˗9(b).
Virgin seeks reconsideration of the Court’s summary judgment order on all three grounds. ECF No.
127 at 21. First, Virgin argues that the Court manifestly failed to consider facts and dispositive legal
arguments related to federal preemption of the Plaintiffs’ meal and rest break claims and the application
of California law to Plaintiff Bernstein. ECF No. 127
at 21-26, 30-32. Second, Virgin argues that the California Supreme Court’s recent decision in Augustus v.
ABM Sec. Servs., Inc. “is new, material authority that
impacts the preemption analysis.” Id. at 21. Finally,
Virgin argues that “the Summary Judgment Order
creates a change in the law of the case impacting the
Class Certification Order.” Id. After careful consideration of the motion for leave, the Court concludes that
none of the grounds for reconsideration is satisfied
here.
A. Field Preemption
With respect to field preemption, Virgin argues
that “the Court did not address why in-flight safety is

81a
not a proper field for consideration.” ECF No. 127 at
9. The Court already considered, and rejected, this argument. ECF No. 121 at 23-24, n. 11-12; Civ. L.R. 79(c) (prohibiting repetition of argument in a motion for
leave to file a motion for reconsideration).
Virgin also argues that the Court “manifestly
failed to consider that a single regulation can occupy
a relevant field to warrant preemption of a state law,
the purpose and history of C.F.R. § 121.467, or the nature of the ITMs’ work.” ECF No. 127 at 9. The Court
did not reject Virgin’s field preemption argument
based solely on the fact that there was just a single
regulation that addressed the defined field. The Court
explained that 14 C.F.R. § 121.467(b), in addition to
being the “only [Federal Aviation Regulation] that actually regulates the provision of breaks to flight
attendants,” “can hardly be described as comprehensive, detailed or pervasive enough to justify federal
preemption of the field.” ECF No. 121 at 24. That regulation simply establishes a maximum duty period of
fourteen hours (with some exceptions) and a minimum
rest period of nine hours between duty periods; it says
absolutely nothing about the provision of meal or rest
breaks during those duty periods. This contrasts
starkly with the “exhaustive” regulation at issue in
Federation of the Blind, which “pervasively regulate[d] the accessibility of airport kiosks” and
“inform[ed] airlines with striking precision about the
attributes their accessible kiosks must have.” Federation of the Blind, 813 F.3d at 734-35.
B. Conflict Preemption
With respect to conflict preemption, Virgin argues
that the Court manifestly failed to consider the conflict between the “unpredictable” and “irregular”

82a
factual context of airline employment, on the one
hand, and the “rigid and mandatory requirements of
California law,” on the other hand. ECF No. 127 at
9˗10. Again, the Court already considered and rejected
this argument. ECF No. 121 at 25.
Virgin argues that the California Supreme Court’s
recent decision in Augustus v. ABM Sec. Servs., Inc.,
2 Cal. 5th 257 (2016) “is new, material authority that
impacts the preemption analysis.” ECF No. 127 at 21,
24, n. 9. That case does not represent a material
change in the law; it simply repeats the well-established principle that, “[d]uring required rest periods,
employers must relieve their employees of all duties
and relinquish any control over how employees spend
their break time.” Augustus, 2 Cal. 5th at 260. Indeed,
the Augustus court cited a 2012 case for that proposition. See id. (citing Brinker Restaurant Corp. v.
Superior Court, 53 Cal. 4th 1004, 1038˗39 (2012)). In
fact, in several respects Augustus supports, rather
than undermines, this Court’s prior order. The Augustus court explained that “[s]everal options nonetheless
remain available to employers who find it especially
burdensome to relieve their employees of all duties
during rest periods—including the duty to remain on
call.” 2 Cal. 5th at 272. Those options include
“provid[ing] employees with another rest period to replace one that was interrupted,” or “pay[ing] the
premium pay set forth in [the relevant wage order and
Cal. Labor Code Section 226.7].” Id.1 The Augustus
The wage order for the transportation industry similarly
allows employers to pay a premium of one hour of pay at the employee’s regular rate for each workday that a meal period or rest
period is not provided. Cal. Code Regs. tit. 8, § 11090, Wage Order 9-2001 ¶¶ 11(D), 12(B).
1

83a
court clarified that “[n]othing in our holding circumscribes an employer’s ability to reasonably reschedule
a rest period when the need arises.” Id. at 271. The
Augustus court also acknowledged the relevant wage
order’s exception for on-duty meal breaks when “the
nature of the work prevents an employee from being
relieved of all duty and when by written agreement.”
Augustus, 2 Cal. 5th at 264, n. 9.2 The court noted yet
another “option for employers” who consistently fail to
provide duty-free breaks: “If an employer seeks to be
excused generally from compliance with the obligation
to provide rest periods free of all duty and employer
control, the employer should avail itself of the opportunity to request from the DLSE an exemption.” Id. at
281.3 Id. at 272, n. 14.
In sum, California’s meal and rest break requirements give employers like Virgin some flexibility if the
nature of the employee’s work prevents off-duty
breaks, and therefore Virgin can comply with both the
Federal Aviation Regulations and California’s meal
and rest break requirements. Virgin, who bears the
burden of proof with respect to the affirmative defense
of federal preemption, does not claim to have availed
itself of any of these options and has failed to demonstrate a conflict between the federal regulations and
California’s meal and rest break requirements.
The wage order for the transportation industry includes a
similar provision. Cal. Code Regs. tit. 8, § 11090, Wage Order 92001 ¶ 11(C).
2

The wage order for the transportation industry also allows
an employer to seek an exemption from the rest period requirement if, in the discretion of the DLSE, the rest period
requirement “would not materially affect the welfare or comfort
of employees and would work an undue hardship on the employer.” Cal. Code Regs. Tit. 8, § 11090, Wage Order 9-2001 ¶ 17.
3

84a
Bruesewitz v. Wyeth LLC, 562 U.S. 223, 251, n. 2
(2011).
C. ADA Preemption
Next, Virgin argues that the Court improperly relied on the Ninth Circuit’s decision in Dilts v. Penske
Logistics, LLC, 769 F.3d 637 (9th Cir. 2014) because
that decision was “limited in its reach” and should not
apply to interstate airline employees. ECF No. 127 at
10, 25-26. Virgin further argues that the Court “disregarded” pre-Dilts case law and failed to consider
“material evidence” regarding the impact that California’s meal and rest break laws would have on Virgin’s
routes and services. Id.
As the Court explained in the summary judgment
order, “the Ninth Circuit’s decision in Dilts v. Penske
Logistics, LLC . . . squarely rejected the preemption
argument that Virgin makes here.” ECF No. 121 at
26. The Court also explained that Dilts is not distinguishable on the ground that it dealt with preemption
under the Federal Aviation Administration Authorization Act (“FAAAAA”), rather than the ADA, because
“‘the FAAAA was modeled on the [ADA]’ and ‘us[es]
text nearly identical to the [ADA’s], including the exact preemption language at issue in this case.” Id.
(quoting Dilts, 769 F.3d at 643-44).4 As the Dilts court
Virgin argues that there is a difference between the
preemption language in the ADA and the FAAAA. ECF No. 127
at 26. The only difference between the ADA and the FAAAAA “is
that the latter contains the additional phrase ‘with respect to the
transportation of property,’ which is absent from the [ADA] and
which ‘massively limits the scope of preemption ordered by the
FAAAA.’” Dilts, 769 F.3d at 644 (internal citations omitted). That
difference is completely immaterial here, and therefore this argument is meritless.
4

85a
explained, “Congress meant to create parity between
freight services provided by air carriers and those provided by motor carriers.” Dilts, 769 F.3d at 644. In
sum, the Court rejected Virgin’s ADA preemption argument because Dilts is directly on point, “all of the
cases that Virgin relie[d] on predate [Dilts],” and “Virgin offer[ed] no persuasive argument as to why
identical language in a statute with an identical purpose should be interpreted differently merely because
it applies to a different industry.” ECF No. 121 at
26˗27.
Virgin now relies on the amicus brief that the Department of Transportation filed in Dilts to argue that
the holding should not apply to airline employees.
ECF No. 127 at 26. As an initial matter, this is a new
argument that was not previously “presented to the
Court” as required by Local Rule 7˗9(b)(3). “Generally,
motions for reconsideration . . . are not the place for
parties to make new arguments not raised in their
original briefs.” Gray v. Golden Gate Nat. Recreational Area, 866 F. Supp. 2d 1129, 1132 (N.D. Cal.
2011) (citing Northwest Acceptance Corp. v.
Lynnwood Equip., Inc., 841 F.2d 918, 925–26 (9th Cir.
1988)). In any event, and contrary to Virgin’s assertion, the Ninth Circuit did not “heavily rel[y]” on that
amicus brief. ECF No. 127 at 25. Although the court
found the Department of Transportation’s amicus
brief to be “persuasive,” it noted that it “would reach
the same result in the absence of the agency’s brief,”
and explained at the outset of its ADA preemption
analysis that this was not even a “close case[].” Dilts,
769 F.3d at 650, 647. Given the limited role that the
amicus brief played in the Ninth Circuit’s decision, the
Court finds it inappropriate to consider portions of
that brief that the Ninth Circuit did not even mention

86a
in its opinion. This approach is particularly sound in
light of Virgin’s failure to previously present this argument to the Court. 5
Virgin also tries to distinguish Dilts on the ground
that “the Ninth Circuit acknowledged that it was dealing exclusively with intrastate drivers who worked
entirely within California and, thus, were not subject
to the laws of any other state.” ECF No. 127 at 26 (emphasis in original). This argument fails for two
reasons.
First, although this factual distinction could be
relevant to other issues in this case—namely, the extraterritorial application of California law and the
dormant commerce clause analysis6—it is unclear how
the interstate nature of the job impacts the ADA
preemption analysis. Indeed, the Dilts court explained
that “[t]he fact that laws may differ from state to state
is not, on its own, cause for FAAAA preemption” because “Congress was concerned only with those state
laws that are significantly ‘related to’ prices, routes,
The Court also notes that at least two district courts have
applied Dilts to the airline industry. See Valencia v. SCIS Air
Sec. Corp., 241 Cal. App. 4th 377, 385 (2015), review denied (Jan.
27, 2016) (holding that plaintiff’s meal and rest break claims
against employer who performed security checks on catering
equipment for airplanes was not preempted by the ADA) (citing
Dilts, 769 F.3d at 637); Air Transp. Ass’n of Am., Inc. v. Port of
Seattle, No. C14-1733-JCC, 2014 WL 12539373, at *3 (W.D.
Wash. Dec. 19, 2014) (finding that the plaintiffs, an airline trade
organization and an airline contractor, were not likely to succeed
on the merits of their claim that the Port of Seattle’s rules regarding employment standards, compensation, and time off for
covered employees were preempted by the ADA) (citing Dilts, 769
F.3d at 647).
5

Virgin does not seek reconsideration regarding, and Dilts
does not address, either of those issues.
6

87a
or services.” Dilts, 769 F.3d at 647˗48. The Dilts court
ultimately concluded that California’s meal and rest
break laws—the exact same laws at issue in this
case—are not related to prices, routes, or services, and
are therefore “permissible” even though they may differ from similar laws adopted in neighboring states.
Id.
Second, the only mention of the “intrastate” nature of the Dilts employees’ work appears as dicta in
a footnote. Id. at 648, n. 2. There, the Dilts court explained that it did not need to resolve the “open issue”
as to whether a federal law can preempt a state law
on an as-applied basis because it found that “California’s meal and rest break laws, as generally applied to
motor carriers, are not preempted.” Id. It went on to
explain that, if it were to construe the preemption argument as an “as-applied” challenge with respect to
the particular defendant motor carriers in that case,
“the argument against preemption [is] even stronger”
because “Plaintiff drivers work on short-haul routes
and work exclusively within the state of California”
and “are not confronted with a ‘patchwork’ of hour and
break laws.” Id. This footnote makes clear that the intrastate nature of the employees’ work provided
further support for, but was not essential to, the
court’s holding. To the extent the interstate nature of
the flight attendants work is somehow relevant to
ADA preemption, Virgin is not being asked to comply
with a “patchwork” of each state’s wage and hour
laws. ECF No. 121 at 16˗17. In fact, “Virgin has presented no evidence to support its contention that it
will be required to comply with other states’ laws.” Id.
Rather, Virgin is simply being required [to] comply
with the law of the state where it chose to headquarter
its business, where its California-resident employees

88a
performed work based out of California airports, and
where it made critical decisions regarding how it
would compensate its employees that are not being
challenged in this lawsuit.” Id. Therefore, as in Dilts,
applying California’s meal and rest break laws to Virgin “would not contribute to an impermissible
‘patchwork’ of state-specific laws.” Dilts, 769 F.3d at
647.
D. Application
Bernstein

of

California

Law

to

Next, Virgin argues that the Court’s holding regarding the application of California law to Plaintiff
Bernstein fails to consider undisputed, material evidence. ECF No. 127 at 30. Specifically, Virgin argues
that the Court failed to consider that “Bernstein admits that she lived in New York in 2011 and in Florida
in 2012” and that “she did not file a California income
tax return in 2012—a year in which her paystubs were
addressed to a Florida address.” ECF No. 127 at 30˗31.
Virgin contends that, because “Bernstein was not a
California resident in 2012, she cannot be a member
of the California Resident Subclass for that year, and
at a minimum, cannot assert a claim under California
Labor Code § 226 (Wage Statements) for that time period.” Id. at 31, n. 12. Virgin also argues that
Bernstein was not based out of San Francisco International Airport (“SFO”) during the course of her
employment with Virgin. Id. at 31.
Bernstein’s residency in 2012 is a non-issue:
Plaintiffs already conceded in their motion for class
certification briefing that, “[a]lthough Bernstein filed
taxes in California in 2011 (a year in which she transitioned from California to New York) and will be
included in the subclass for 2011, she did not file taxes

89a
in California in 2012, and will therefore be excluded
from the subclass in 2012.” ECF No. 84 at 14, n. 26.
The Court now reaffirms that the fact that Bernstein
filed her taxes in California in 2011 is sufficient to
both identify her as a member of the California Resident Subclass for that year and to create a triable
factual issue regarding her residency.7 ECF No. 121
at 8, n. 2; see also Sarviss v. Gen. Dynamics Info.
Tech., Inc., 663 F. Supp. 2d 883, 899 (C.D. Cal. 2009)
(finding that the plaintiff was “a California resident
who presumably received his pay in California” because “he paid California taxes”). Moreover, given the
wealth of other factors that support the application of
California law, including Virgin’s deep ties to California and the fact that the wrongful conduct occurred in
California, the fact that Bernstein did not file her
taxes in California in 2012 does not alter this Court’s
conclusion that California law applies to her claims.8
See ECF No. 121 at 7-8.
Virgin’s arguments regarding Bernstein’s base
airport and the nature of her flight schedules also fail.
Bernstein declared that “[she] was based at SFO for
In addition, Bernstein’s wage statements consistently reflect a California address between June 2010 and January 2012.
ECF No. 101˗23 at 34˗71.
7

The Court also notes that the Class is defined to include
“[a]ll individuals who have worked as California-based flight attendants of Virgin America, Inc. at any time during the period
from March 18, 2011 . . . through the date established by the Court
for notice of certification of the Class.” ECF No. 104 at 28-29 (emphasis added). The California Resident Subclass uses the same
time frame and includes “[a]ll individuals who have worked as
California-based flight attendants of Virgin America, Inc. while
residing in California at any time during the Class Period.” Id.
(emphasis added).
8

90a
[her] entire employment at Virgin” because Virgin
only had one based airport (SFO) during her employment with them. ECF No. 101-33 ¶ 3-4. Virgin’s
Director of Inflight confirmed that “[a]ll InFlight
Team Members were based out of SFO until LAX became a base in April 2013.” ECF No. 71-3 ¶ 8. Even
though her pairings started and ended in New York,
Plaintiffs’ expert calculated that “[o]ver 95 percent of
flights that Julia Bernstein worked within the sample
either arrived to or departed from a California airport,
and she performed work in California for 100 percent
of her workdays.” ECF No. 101-38 ¶ 6. Even Virgin’s
expert concluded that Bernstein spent entire days in
California during which she was potentially eligible
for a meal period and rest break. ECF No. 98-2 at 6.
Therefore, the Court did not manifestly fail to consider
evidence regarding Bernstein’s base airport and the
nature of her flight schedules. ECF No. 121 at 2.
E. Reconsideration of the Court’s Class
Certification Order
Finally, Virgin argues that the Court’s summary
judgment order warrants reconsideration of the prior
class certification order. ECF No. 127 at 32-33. Virgin
argues that, because Bernstein’s 2011 California income tax return “create[d] a triable factual issue”
regarding her residency, and did not “confirm Bernstein’s residency,” the Court must reconsider its prior
holding that it could identify California Resident Subclass members by looking to Virgin’s business records
or tax records. Id. Virgin also argues that individual
class member investigations into residency and the
right to recover for meal and rest break claims will
now predominate over common questions. ECF No.
127 at 33.

91a
Virgin misunderstands both the ascertainability
requirement and the Court’s class certification order.
The purpose of the ascertainability requirement is to
ensure that the class definition allows a court to feasibly identify class members. Vietnam Veterans of
Am. v. C.I.A., 288 F.R.D. 192, 211 (N.D. Cal. 2012);
Newberg on Class Actions § 3:3 (5th ed.). Again, the
Court can feasibly do so here by looking to Virgin’s
business records and the state where each flight attendant paid income taxes. ECF No. 104. This
information will allow the Court to easily identify both
California-based and California resident flight attendants during the relevant time period.9 Id. As the Court
explained in the class certification order, ascertainability does not require that every member of the class
ultimately win on the merits, and Virgin cannot “defeat class certification by pointing to the possibility
that certain members of the class will not be able to
recover on their claims.” ECF No. 104 at 20. Therefore,
the fact that the Court did not definitively “confirm
Bernstein’s residency” as a matter of law does not defeat class certification.
Nor will individual questions regarding residency
and breaks predominate over issues common to the
class. Although residency turns on several factors,
California’s Franchise Tax Board instructs potential
filers to carefully consider those factors to determine
whether they are a California resident who is subject
to California income tax. See Whittell v. Franchise
Moreover, as the Court noted in its class certification order,
“every member of the proposed California Resident Subclass is
also a member of the proposed Class.” ECF No. 104 at 11. Virgin
does not dispute that its records allow the Court to easily identify
Class members.
9

92a
Tax Bd., 231 Cal. App. 2d 278, 286–88 (Ct. App. 1964);
State of California Franchise Tax Board, Publication
1031,
available
online
at
https://www.ftb.ca.gov/forms/2015/15_1031.pdf. Because California Resident Subclass members have
already made a determination regarding their residency, filed a California tax return, and/or provided
Virgin with a California address during the class period, residency will likely be undisputed for the vast
majority of subclass members, thus reducing the potential for mini-trials regarding this issue. And, just
as the parties’ respective experts calculated the Plaintiffs’ missed breaks by looking at the length of their
duty periods (which are available on in the AIMS and
CrewTrac records), the same calculation can be done
for class members. ECF No. 101-38 at 14-15; ECF No.
98-2 at 6-7. As Virgin admitted in its motion to strike
the Plaintiffs’ expert report, the number of breaks that
each class member missed is a damages issue, not a
liability issue. ECF No. 74 at 6. And “damage calculations alone cannot defeat certification.” Leyva v.
Medline Indus. Inc., 716 F.3d 510, 513 (9th Cir. 2013)
(quoting Yokoyama v. Midland Nat’l Life Ins. Co., 594
F.3d 1087, 1094 (9th Cir. 2010)). Indeed, because
“damages determinations are individual in nearly all
wage-and-hour class actions,” decertifying a class on
that basis “may well be effectively to sound the deathknell of the class action device.” Id. (quoting Brinker
Rest. Corp. v. Superior Court, 53 Cal. 4th 1004
(2012)). The overwhelming common issues in this
case—namely, whether “Virgin’s company-wide policies regarding its flight attendants’ working
conditions and pay” violate California law—remain
the same. ECF No. 104 at 20-25.

93a
***
The Court denies the motion for leave to file a motion for reconsideration.
II. MOTION
FOR
CERTIFICATION
INTERLOCUTORY APPEAL

FOR

As an alternative to reconsideration, Virgin moves
to certify the following two questions for interlocutory
appeal pursuant to 28 U.S.C. § 1292(b): (1) whether
California’s meal and rest break laws are preempted
under any of the three preemption theories advanced
by Virgin; and (2) whether any class or subclass based
on residence can be maintained when individual triable issues of fact would exist as to each putative class
member’s residence. ECF No. 127 at 11, 26-30.
The final judgment rule ordinarily provides that
courts of appeal shall have jurisdiction only over “final
decisions of the district courts of the United States. 28
U.S.C. § 1291. However, “[w]hen a district judge, in
making in a civil action an order not otherwise appealable under this section, shall be of the opinion that
such order involves a controlling question of law as to
which there is substantial ground for difference of
opinion and that an immediate appeal from the order
may materially advance the ultimate termination of
the litigation, he shall so state in writing in such order.” 28 U.S.C. § 1292(b). “Certification under
§ 1292(b) requires the district court to expressly find
in writing that all three § 1292(b) requirements are
met.” Couch v. Telescope Inc., 611 F.3d 629, 633 (9th
Cir. 2010). “These certification requirements are (1)
that there be a controlling question of law, (2) that
there be substantial grounds for difference of opinion,
and (3) that an immediate appeal may materially advance the ultimate termination of the litigation.” In re

94a
Cement Antitrust Litig. (MDL No. 296), 673 F.2d
1020, 1026 (9th Cir. 1981), aff’d sub nom. Arizona v.
Ash Grove Cement Co., 459 U.S. 1190 (1983). Section
1292(b) is a departure from the normal rule that only
final judgments are appealable, and therefore must be
construed narrowly.” James v. Price Stern Sloan, Inc.,
283 F.3d 1064, 1067 n.6 (9th Cir. 2002). To that end,
“section 1292(b) is to be applied sparingly and only in
exceptional cases.” In re Cement Antitrust Litigation,
673 F.2d at 1027.
Virgin has failed to show that there is a substantial ground for difference of opinion regarding federal
preemption of Plaintiffs’ meal and rest break claims.
Courts determine whether there is a “substantial
ground for difference of opinion” by examining “to
what extent the controlling law is unclear.” Couch,
611 F.3d at 633. Traditionally, courts will find that a
substantial ground for difference of opinion exists
where “the circuits are in dispute on the question and
the court of appeals of the circuit has not spoken on
the point, if complicated questions arise under foreign
law, or if novel and difficult questions of first impression are presented.” Id. (quoting 3 Federal Procedure,
Lawyers Edition § 3:212 (2010) (footnotes omitted)).
The Ninth Circuit’s decision in Dilts dealt with the exact same laws at issue here—California’s meal and
rest break requirements—and held that those laws
were not preempted under the FAAAA, which was
modeled on the ADA includes the exact preemption
language at issue here. Dilts, 769 F.3d at 647˗48 (holding that “California’s meal and rest break
requirements plainly are not the sorts of laws ‘related
to’ prices, routes, or services that Congress intended
to preempt,” but rather “normal background rules for
almost all employers doing business in the state of

95a
California”). In doing so, the Ninth Circuit rejected
the same arguments that Virgin makes here, explaining that these arguments “equate[] to nothing more
than a modestly increased cost of doing business,
which is not cause for preemption.” Id. at 647˗50. The
Dilts court proposed the same solution as this Court:
“Defendants are at liberty to schedule service whenever they choose. They simply must hire a sufficient
number of drivers and stagger their breaks for any
long period in which continuous service is necessary.”
Id. Virgin fails to cite to a single post-Dilts case that
would suggest “substantial grounds for difference of
opinion” regarding its application to airline employees. If anything, post-Dilts cases suggest the opposite.
See Valencia v. SCIS Air Sec. Corp., 241 Cal. App. 4th
377, 385 (2015), review denied (Jan. 27, 2016) (applying Dilts to the airline industry); Air Transp. Ass’n of
Am., Inc. v. Port of Seattle, No. C14-1733-JCC, 2014
WL 12539373, at *3 (W.D. Wash. Dec. 19, 2014)
(same). Nor has Virgin shown that there is a substantial ground for difference of opinion with respect to its
other federal preemption theories.
Virgin fails to present any arguments as to why
the second question should be certified for interlocutory appeal. Because the Court will not need to
conduct factual inquiries into each putative class
member’s residence, the answer to this question will
not materially affect the outcome of this litigation. In
re Cement Antitrust Litig., 673 F.2d at 1026 (“[A]ll
that must be shown in order for a question to be ‘controlling’ is that resolution of the issue on appeal could
materially affect the outcome of litigation in the district court.”). While it is possible to imagine a case in
which a court would need to inquire into each individual class member’s residence, this is not such a case.

96a
Virgin does not dispute that two out of the three
named Plaintiffs are California residents. And, as explained above, residence will likely be undisputed
with respect to most class members because they already made a residence determination by filing their
taxes in California and providing Virgin with a California mailing address. To the extent Virgin disputes
whether certain individual class members were actually California residents, those individualized
inquiries pale in comparison to the overwhelming
common issues in this case, and thus do not affect the
class certification analysis. For the same reasons, the
Court finds that an immediate appeal would not “materially advance the ultimate termination of the
litigation.” In re Cement Antitrust Litig. (MDL No.
296), 673 F.2d at 1026. In the unlikely event that individualized
inquiries
regarding
residence
predominate or otherwise render class treatment unmanageable, the Rules allow a district court to alter
or amend a prior class certification order at any time
before final judgment. Fed. R. Civ. P. 23(c)(1)(C). As a
result, this is not an “exceptional case[]” in which certification under Section 1292(b) is necessary to avoid
expense and delay. In re Cement Antitrust Litigation,
673 F.2d at 1027.
CONCLUSION
The Court denies the motion in its entirety.
IT IS SO ORDERED.
Dated: March 27, 2017

97a
APPENDIX D
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
____________
No. 15-cv-02277-JST
____________
JULIA BERNSTEIN, LISA MARIE SMITH, and ESTHER GARCIA, on behalf of themselves and all
others similarly situated,
Plaintiffs
vs.
VIRGIN AMERICA INC.; ALASKA AIRLINES, INC.
and Does 1-10, inclusive;
Defendants
____________

JUDGMENT
IT IS ORDERED, ADJUDGED, and DECREED
that Virgin America Inc. (“Virgin”) has violated the
California Labor Code, the California Unfair Competition Law (UCL) and the California Private Attorneys
General Act (PAGA) for the reasons stated in this
Court’s order granting in part and denying in part
Plaintiffs’ motion for summary judgment and Plaintiffs’ motion for summary judgment on damages. ECF
No. 317, 365. As a result of these violations, Virgin,
and Defendant Alaska Airlines, Inc. as the successorin-interest to Virgin, are liable to the Class, California
Resident Subclass and Waiting Time Penalties

98a
Subclass for failing to pay for all hours worked, failing
to pay overtime premiums, failing to provide meal periods, failing to provide rest breaks, failing to provide
accurate wage statements, and for waiting time penalties, derivative violations of the UCL, and derivative
violations of the PAGA.
IT IS FURTHER ORDERED, ADJUDGED, and
DECREED that judgment is hereby entered against
Defendants Virgin America Inc. and Alaska Airlines,
Inc. and for Plaintiffs, all Class members, all California Resident Subclass members, and all Waiting Time
Penalties Subclass members on the following claims
in the following sums:
1. $13,166,793.31 in damages and restitution to
the Class for failure to pay for all hours worked and
$5,242,406.04 in prejudgment interest for a total of
$18,409,199.35 through January 31, 2019, plus
$3,604.87 per day in continuing prejudgment interest
for each day after January 31, 2019 until the date of
the entry of Judgment;
2. $12,970,133.45 in damages and restitution to
the California Resident Subclass for failure to pay for
all hours worked and $5,405,518.71 in prejudgment
interest for a total of $18,375,652.16 through January
31, 2019, plus $3,551.03 per day in continuing prejudgment interest for each day after January 31, 2019
until the date of the entry of Judgment;
3. $37,171.94 in damages and restitution to the
Class for failure to pay overtime and $14,313.57 in
prejudgment interest for a total of $51,485.51 through
January 31, 2019, plus $10.18 per day in continuing
prejudgment interest for each day after January 31,
2019 until the date of the entry of Judgment;

99a
4. $6,287,420.27 in damages and restitution to
the California Resident Subclass for failure to pay premium pay for overtime hours and $2,352,311.38 in
prejudgment interest for a total of $8,639,731.65
through January 31, 2019, plus $1,721.40 per day in
continuing prejudgment interest for each day after
January 31, 2019 until the date of the entry of Judgment;
5. $190,525.46 in damages and restitution to the
Class for failure to provide legally compliant meal periods;
6. $410,841.20 in damages and restitution to the
Class for failure to provide legally compliant rest
breaks;
7. $4,398,600 in statutory penalties to the Class
and California Resident Subclass for violation of California Labor Code § 226 for failure to provide legally
compliant wage statements;
8. $2,306,210 in statutory penalties to the Waiting Time Penalties Subclass for violation of California
Labor Code § 203 for willful failure to pay all wages
due at the time of separation of employment; and
9. Civil penalties pursuant to the Private Attorney General Act of 2004, Labor Code § 2698 et seq., in
the total amount of $24,981,150 with 75% of each
stated amount to be paid to the LWDA and 25% of
each stated amount to be distributed to the specified
groups of aggrieved employees as follows:
(a) $4,085,700 to the LWDA and the Class
for failure to pay minimum wages;
(b) $413,550 to the LWDA and the California Resident Subclass for failure to pay minimum
wages;

100a
(c) $76,612.50 to the LWDA and the Class
for failure to pay overtime;
(d) $2,498,400 to the LWDA and the California Resident Subclass for failure to pay overtime;
(e) $268,950 to the LWDA and the Class for
failure to provide legally compliant meal periods;
(f) $548,137.50 to the LWDA and the Class
for failure to provide legally compliant rest breaks;
(g) $7,086,900 to the LWDA and Class for
failure to provide accurate wage statements;
(h) $765,975 to the LWDA and California
Resident Subclass for failure to provide accurate wage
statements; and
(i) $9,236,925 to the LWDA and the Class
for failure to pay timely wages.
10. Judgment is hereby entered in favor of Plaintiffs, all Class members, all California Resident
Subclass members, and all Waiting Time Penalties
Subclass members and against Defendants, Virgin
America Inc. and Alaska Airlines, Inc., in the amount
of $77,763,395.33 through January 31, 2019, plus
$8,887.48 per day in continuing prejudgment interest for each day after January 31, 2019 until the date
of the entry of Judgment.
11. This Court retains jurisdiction over this action
for purposes of addressing a proposed plan of allocation, as well as Plaintiffs’ submission of a Bill of Costs
and motion for attorneys’ fees and expenses and
award of service awards for Plaintiffs as Class Representatives.

101a
IT IS SO ORDERED.
Dated: February 4, 2019

102a
APPENDIX E
STATUTORY PROVISIONS INVOLVED

Title 49, United States Code, Section 41713
provides:
(a) Definition.—In this section, “State” means a
State, the District of Columbia, and a territory or possession of the United States.
(b) Preemption.—(1) Except as provided in this
subsection, a State, political subdivision of a State, or
political authority of at least 2 States may not enact
or enforce a law, regulation, or other provision having
the force and effect of law related to a price, route, or
service of an air carrier that may provide air transportation under this subpart.
(2) Paragraphs (1) and (4) of this subsection do not
apply to air transportation provided entirely in
Alaska unless the transportation is air transportation
(except charter air transportation) provided under a
certificate issued under section 41102 of this title.
(3) This subsection does not limit a State, political
subdivision of a State, or political authority of at least
2 States that owns or operates an airport served by an
air carrier holding a certificate issued by the Secretary of Transportation from carrying out its
proprietary powers and rights.
(4) Transportation by air carrier or carrier
affiliated with a direct air carrier.—
(A) General rule.—Except as provided in
subparagraph (B), a State, political subdivision of
a State, or political authority of 2 or more States

103a
may not enact or enforce a law, regulation, or
other provision having the force and effect of law
related to a price, route, or service of an air carrier
or carrier affiliated with a direct air carrier
through common controlling ownership when
such carrier is transporting property by aircraft or
by motor vehicle (whether or not such property
has had or will have a prior or subsequent air
movement).
(B) Matters not covered.—Subparagraph
(A)—
(i) shall not restrict the safety regulatory
authority of a State with respect to motor vehicles, the authority of a State to impose
highway route controls or limitations based on
the size or weight of the motor vehicle or the
hazardous nature of the cargo, or the authority of a State to regulate motor carriers with
regard to minimum amounts of financial responsibility
relating
to
insurance
requirements and self-insurance authorization; and
(ii) does not apply to the transportation of
household goods, as defined in section
13102 of this title.
(C) Applicability of paragraph (1).—This
paragraph shall not limit the applicability of paragraph (1).
*

*

*

104a
The California Labor Code, Section 226.7,
provides:
(a) As used in this section, “recovery period”
means a cooldown period afforded an employee to prevent heat illness.
(b) An employer shall not require an employee to
work during a meal or rest or recovery period mandated pursuant to an applicable statute, or applicable
regulation, standard, or order of the Industrial Welfare Commission, the Occupational Safety and Health
Standards Board, or the Division of Occupational
Safety and Health.
(c) If an employer fails to provide an employee a
meal or rest or recovery period in accordance with a
state law, including, but not limited to, an applicable
statute or applicable regulation, standard, or order of
the Industrial Welfare Commission, the Occupational
Safety and Health Standards Board, or the Division of
Occupational Safety and Health, the employer shall
pay the employee one additional hour of pay at the
employee’s regular rate of compensation for each
workday that the meal or rest or recovery period is not
provided.
(d) A rest or recovery period mandated pursuant
to a state law, including, but not limited to, an applicable statute, or applicable regulation, standard, or
order of the Industrial Welfare Commission, the Occupational Safety and Health Standards Board, or the
Division of Occupational Safety and Health, shall be
counted as hours worked, for which there shall be no
deduction from wages. This subdivision is declaratory
of existing law.
(e) This section shall not apply to an employee
who is exempt from meal or rest or recovery period

105a
requirements pursuant to other state laws, including,
but not limited to, a statute or regulation, standard,
or order of the Industrial Welfare Commission.
(f)(1) An employee employed in the security services industry as a security officer who is registered
pursuant to the Private Security Services Act (Chapter 11.5 (commencing with Section 7580) of Division 3
of the Business and Professions Code) and who is employed by a private patrol operator registered
pursuant to that chapter, may be required to remain
on the premises during rest periods and to remain on
call, and carry and monitor a communication device
during rest periods. If a security officer’s rest period is
interrupted, the security officer shall be permitted to
restart the rest period anew as soon as practicable.
The security officer’s employer satisfies that rest period obligation if the security officer is then able to
take an uninterrupted rest period. If on any workday
a security officer is not permitted to take an uninterrupted rest period of at least 10 minutes for every four
hours worked or major fraction thereof, then the security officer shall be paid one additional hour of pay at
the employee’s regular base hourly rate of compensation.
(2) For purposes of this subdivision, the term “interrupted” means any time a security officer is called
upon to return to performing the active duties of the
security officer’s post prior to completing the rest period, and does not include simply being on the
premises, remaining on call and alert, monitoring a
radio or other communication device, or all of these
actions.

106a
(3) This subdivision only applies to an employee
specified in paragraph (1) if both of the following conditions are satisfied:
(A) The employee is covered by a valid collective bargaining agreement.
(B) The valid collective bargaining agreement
expressly provides for the wages, hours of work,
and working conditions of employees, and expressly provides for rest periods for those
employees, final and binding arbitration of disputes concerning application of its rest period
provisions, premium wage rates for all overtime
hours worked, and a regular hourly rate of pay of
not less than one dollar more than the state minimum wage rate.
(4) This subdivision does not apply to existing
cases filed before January 1, 2021.
(5) In enacting the legislation adding this subdivision, it is the intent of the Legislature to abrogate,
for the security services industry only, the California
Supreme Court’s decision in Augustus v. ABM Security Services, Inc. (2016) 2 Cal.5th 257, to the extent
that decision is in conflict with this subdivision.
(g) This section shall remain in effect only until
January 1, 2027, and as of that date is repealed.
*

*

*

107a
The California
provides:

Labor

Code,

Section

512

(a) An employer shall not employ an employee for
a work period of more than five hours per day without
providing the employee with a meal period of not less
than 30 minutes, except that if the total work period
per day of the employee is no more than six hours, the
meal period may be waived by mutual consent of both
the employer and employee. An employer shall not
employ an employee for a work period of more than 10
hours per day without providing the employee with a
second meal period of not less than 30 minutes, except
that if the total hours worked is no more than 12
hours, the second meal period may be waived by mutual consent of the employer and the employee only if
the first meal period was not waived.
(b)(1) Notwithstanding subdivision (a), the Industrial Welfare Commission may adopt a working
condition order permitting a meal period to commence
after six hours of work if the commission determines
that the order is consistent with the health and welfare of the affected employees.
(2) Notwithstanding paragraph (1), a commercial
driver employed by a motor carrier transporting nutrients and byproducts from a commercial feed
manufacturer subject to Section 15051 of the Food and
Agricultural Code to a customer located in a remote
rural location may commence a meal period after six
hours of work, if the regular rate of pay of the driver
is no less than one and one-half times the state minimum wage and the driver receives overtime
compensation in accordance with Section 510.
(c) Subdivision (a) does not apply to an employee
in the wholesale baking industry who is subject to an

108a
Industrial Welfare Commission wage order and who
is covered by a valid collective bargaining agreement
that provides for a 35-hour workweek consisting of
five 7-hour days, payment of one and one-half times
the regular rate of pay for time worked in excess of
seven hours per day, and a rest period of not less than
10 minutes every two hours.
(d) If an employee in the motion picture industry
or the broadcasting industry, as those industries are
defined in Industrial Welfare Commission Wage Order Numbers 11 and 12, is covered by a valid collective
bargaining agreement that provides for meal periods
and includes a monetary remedy if the employee does
not receive a meal period required by the agreement,
then the terms, conditions, and remedies of the agreement pertaining to meal periods apply in lieu of the
applicable provisions pertaining to meal periods of
subdivision (a) of this section, Section 226.7, and Industrial Welfare Commission Wage Order Numbers
11 and 12.
(e) Subdivisions (a) and (b) do not apply to an employee specified in subdivision (f) if both of the
following conditions are satisfied:
(1) The employee is covered by a valid collective
bargaining agreement.
(2) The valid collective bargaining agreement expressly provides for the wages, hours of work, and
working conditions of employees, and expressly provides for meal periods for those employees, final and
binding arbitration of disputes concerning application
of its meal period provisions, premium wage rates for
all overtime hours worked, and a regular hourly rate
of pay of not less than 30 percent more than the state
minimum wage rate.

109a
(f) Subdivision (e) applies to each of the following
employees:
(1) An employee employed in a construction occupation.
(2) An employee employed as a commercial driver.
(3) An employee employed in the security services
industry as a security officer who is registered pursuant to Chapter 11.5 (commencing with Section 7580)
of Division 3 of the Business and Professions Code,
and who is employed by a private patrol operator registered pursuant to that chapter.
(4) An employee employed by an electrical corporation, a gas corporation, or a local publicly owned
electric utility.
(g) The following definitions apply for the purposes of this section:
(1) “Commercial driver” means an employee who
operates a vehicle described in Section 260 or 462 of,
or subdivision (b) of Section 15210 of, the Vehicle
Code.
(2) “Construction occupation” means all job classifications associated with construction by Article 2
(commencing with Section 7025) of Chapter 9 of Division 3 of the Business and Professions Code, including
work involving alteration, demolition, building, excavation,
renovation,
remodeling,
maintenance,
improvement, and repair, and any other similar or related occupation or trade.
(3) “Electrical corporation” has the same meaning
as provided in Section 218 of the Public Utilities Code.
(4) “Gas corporation” has the same meaning as
provided in Section 222 of the Public Utilities Code.

110a
(5) “Local publicly owned electric utility” has the
same meaning as provided in Section 224.3 of the Public Utilities Code.

